        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Evaluation Report




        Decline In EPA Particulate Matter
        Methods Development Activities
        May Hamper Timely Achievement
        of Program Goals

        Report No. 2003-P-00016

        September 30, 2003
Report Contributors:                              Patrick J. Milligan
                                                  Mark S. Phillips
                                                  Patrick J. O’Malley
                                                  Tiffine Johnson-Davis




Abbreviations

EPA                     Environmental Protection Agency
FRM                     Federal Reference Method
GAO                     General Accounting Office
OAQPS                   Office of Air Quality Planning and Standards
OIG                     Office of Inspector General
ORD                     Office of Research and Development
PM                      Particulate Matter
STAPPA/ALAPCO           State and Territorial Air Pollution Program Administrators/
                            Association of Local Air Pollution Control Officials
TSP                     Total Suspended Particulates




Cover photo: Ambient air monitoring station in Wilmington, Delaware (obtained from
             Delaware Department of Natural Resources and Environmental Control web site).
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                      September 30, 2003

MEMORANDUM

SUBJECT:            Decline in EPA Particulate Matter Methods Development Activities May
                    Hamper Timely Achievement of Program Goals
                    Report No. 2003-P-00016

FROM:               J. Rick Beusse /s/
                    Director for Program Evaluation, Air Quality Issues

TO:                 Jeffrey R. Holmstead
                    Assistant Administrator for Air and Radiation (6101A)

                    Dr. J. Paul Gilman
                    Assistant Administrator for Research and Development (8101R)

Attached is our final report regarding the Environmental Protection Agency (EPA) Particulate
Matter methods development activities. This report contains findings regarding the decline in
methods development activities and how this decline may hamper timely achievement of
program goals. Also, the report contains corrective actions the Office of Inspector General (OIG)
recommends. This report represents the opinion of the OIG and the findings contained in this
report do not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established procedures.

EPA’s Office of Air and Radiation provided us with a response on September 29, 2003, that
consolidated its comments to the draft report with those from the Office of Research and
Development (ORD). We included the Agency consolidated response in its entirety as
Appendix B. Independent of the Agency’s consolidated response, ORD officials requested that
we include its own response as a separate attachment. Although we believe the Agency’s official
consolidated response adequately reflects ORD’s position, ORD officials requested that we
include the transmittal memorandum as an attachment to our final report (see Appendix D.)

Action Required

In accordance with EPA Directive 2750, as the action official, you are required to provide this
office with a written response within 90 days of the final report date. Since this report deals
primarily with Office of Air and Radiation’s Particulate Matter Program, the Assistant
Administrator of the Office of Air and Radiation was designated the primary action official.
As such, he should take the lead in coordinating the Agency’s response. The response should
address all recommendations. For the corrective actions planned but not completed by the
response date, please describe the actions that are ongoing and provide a timetable for
completion. If you disagree with a recommendation, please provide alternative actions
addressing the findings reported. We appreciate the efforts of EPA officials and staff, as well as
external stakeholders, in working with us to develop this report. For your convenience, this
report will be available at http://www.epa.gov/oig/

If you or your staff have any questions regarding this report, please contact me at (919) 541-5747
or Patrick Milligan, Assignment Manager, at (215) 814-2326.
                      Executive Summary
Purpose

           Particulate Matter (PM) is a complex mixture of harmful solid and liquid particles
           found in ambient (outdoor) air. PM2.5 – the smallest of the two types of regulated
           airborne particles – represents “fine” particles that are less than or equal to
           2.5 microns in diameter, or about 1/30th the thickness of a human hair. In addition
           to PM2.5, the Environmental Protection Agency (EPA) also regulates PM10 particles
           less than or equal to 10 microns in diameter. Exposure to excess levels of PM can
           result in respiratory and other health-related illnesses and, in some cases, premature
           death. EPA estimates that, annually, over 15,000 deaths in the United States may
           be attributable to PM exposure.

           A fundamental component in ensuring reliable, valid, and complete PM
           measurements is “methods development” – the process of developing, evaluating,
           and validating the methods and associated instrumentation for measuring PM in
           ambient air. These measurements are the first step in identifying those areas of the
           country where people are exposed to unhealthy levels of airborne particulate matter.
           Accordingly, our objectives were to answer the following:

           •   Has EPA supported PM2.5 methods development activities to the extent
               necessary to achieve the short- and long-term goals of the PM2.5 program?

           •   Are increased methods development activities needed to ensure the timely,
               cost-effective achievement of PM program goals?

Results in Brief

           EPA has not supported PM2.5 methods development activities to the extent
           necessary to fully achieve the short- and long-range goals of the PM2.5 program in a
           timely manner. The Agency is about 18 months behind schedule in obtaining
           sufficient PM2.5 monitoring data needed to determine areas with excess PM2.5
           levels, also known as making attainment designations, although EPA is planning to
           reduce the delay to about 9 months. Once areas have been identified, State and
           local agencies can develop emissions control strategies describing the specific
           actions to be taken to bring these areas into attainment with the health-based PM2.5
           standard. Thus, the delay in obtaining sufficient ambient air data is one of several
           contributing factors that could result in millions of individuals being exposed to
           excess levels of PM longer than planned. Increased methods development activities
           are needed to address current monitor limitations and ensure that an appropriate PM
           monitoring network is in place to best enable State and local agencies to develop
           plans to effectively reduce excess levels. Also, increased methods development


                                              i
        activities will be needed to address future PM monitoring needs, including
        supporting homeland security and enabling areas to meet future PM standards, such
        as the new PM “coarse” standard being developed.

        A significant reason for delays in achieving PM program goals was a gradual and
        largely unintended decline in EPA’s methods development activities related to PM
        over the last decade. According to Agency officials, the key factors that contributed
        to the gradual decline in PM2.5 methods development included the loss of technical
        expertise due to retirements, a shift in Office of Research and Development
        priorities, and the lack of a comprehensive methods development strategy to guard
        against unintended decreases in methods development support. As a result,
        methods development activities need to be increased to ensure the timely,
        cost-effective achievement of PM program goals.

        EPA is aware of the problems with measuring PM, and many in the Agency have
        worked diligently to correct those problems. Still, these problems increased State,
        local, and tribal agency labor costs and resulted in data from many PM2.5
        monitoring sites being lost, delayed, or determined to be unusable. Consequently,
        as the Agency moves forward, these delays may impact EPA’s progress in reducing
        human exposure to unhealthy levels of PM.

Recommendations

        We recommend that the Assistant Administrator for Air and Radiation, in
        collaboration with the Assistant Administrator for Research and Development,
        develop a comprehensive methods development strategy for the PM program. We
        are also making recommendations to improve the development of cost effective
        monitoring methods for the impending PM “coarse” standard, maximize
        opportunities to support and enhance EPA’s homeland security efforts, address
        current technology limitations, re-evaluate the current PM2.5 data quality
        requirements, and take needed human capital actions.

Agency Comments and OIG Evaluation

        EPA’s Office of Air and Radiation provided us with a response that consolidated its
        comments to the draft report with those from ORD. Although the Agency had
        some disagreement with certain issues and underlying causes, it agreed to
        implement all of our recommendations. We included the Agency consolidated
        response in its entirety as Appendix B. However, EPA did not agree that the
        Agency had not supported PM2.5 methods development activities to the extent
        necessary to achieve the short- and long-range goals of the PM2.5 program.
        Nonetheless, our work with external stakeholders, particularly States tasked with
        implementing the monitoring network, suggested otherwise. EPA also provided
        several technical clarifications and comments. We have made changes in the report
        as a result of the Agency’s consolidated response, as appropriate. Our evaluation of
        the Agency’s consolidated response is in Appendix C.

                                          ii
                                       Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          i



 Chapters

          1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1


          2         Declining Methods Development Support
                    Hampers Timely Achievement of Program Goals . . . . . . . . . . . . . . . . . . . . .                                 7


          3         Limitations of Existing PM Monitors Need To Be Addressed
                    By Increasing Methods Development Activities . . . . . . . . . . . . . . . . . . 15




 Appendix
          A         Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         B         Consolidated EPA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . .                              29

         C         OIG Evaluation of EPA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . 39

         D         ORD Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     43

         E         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   47




                                                                     iii
                                            Chapter 1
                                            Introduction

Purpose

                 Particulate Matter (PM) is the complex mixture of harmful solid and liquid particles
                 found in ambient (outdoor) air. PM2.5 represents fine particles that are less than or
                 equal to 2.5 microns in diameter. Exposure to unhealthy levels of PM2.5 can result
                 in respiratory and other health-related illnesses and, in some cases, premature death.
                 The Environmental Protection Agency (EPA) estimates that 15,000 deaths in the
                 U.S. may be attributable to PM exposure annually.1 Reliable, valid, and complete
                 measurements of PM are essential to developing control strategies and gauging the
                 success of Federal, State, local, and industry activities designed to protect human
                 health. A key component in ensuring reliable, valid, and complete PM
                 measurements is “methods development,” the process of developing, evaluating,
                 and validating the methods and associated instrumentation for measuring PM. The
                 ambient air measurements generated using these methods are the first step in
                 identifying those areas of the country where people are exposed to unhealthy levels
                 of airborne particulate matter. Once these areas have been identified, State and
                 local agencies can develop emissions control strategies describing the specific
                 actions that industry and others must take to bring areas into attainment with the
                 health-based PM2.5 standard. The objectives of our evaluation were to answer the
                 following:

                 C Has the EPA supported PM2.5 methods development activities to the extent
                     necessary to achieve the short- and long-term goals of the PM2.5 program?

                 C Are increased methods development activities needed to ensure the timely,
                     cost-effective achievement of PM program goals?

Background

                 What Is Particulate Matter?

                 PM includes acids, metals, gases, and other harmful airborne substances that can be
                 breathed into the lungs. PM particles include elemental carbon (soot) from diesel
                 engines and wood combustion; sulfate formed from sulfur dioxide emissions from
                 power plants and industrial facilities; nitrates formed from nitrogen oxide emissions
                 from power plants, automobiles, and other types of combustion sources; and dust
                 from roads. Some particles are large or dark enough to be seen as soot or smoke;


        1
        In 2002, the World Health Organization estimated that as many as 500,000 deaths may be attributable to
PM exposure annually worldwide.

                                                        1
                  others are so small they can only be detected with an electron microscope. These
                  particles vary significantly by location. Fine particles between one-half and
                  2 microns may travel thousands of miles, while larger particles – 10 microns in size
                  or larger – may only travel 100 miles or less. Very large particles (100 microns)
                  may only travel a few hundred meters. Distances for all sizes are strongly
                  dependent on meteorology, such as wind speed.

                  Since the early 1970s, EPA has been concerned about the adverse effects of PM on
                  human health and the environment. The first airborne particles to be regulated were
                  Total Suspended Particulates (TSP), which included a broad range of large and
                  small particles. Today, EPA no longer monitors for TSP, but instead regulates
                  several smaller-sized particles. While the larger TSP particles are kept from the
                  lung tissues by impaction in the nose, throat, and larynx, smaller particles can slip
                  past those body defenses and penetrate deep into the lungs. EPA regulates two
                  categories of these smaller airborne particles, as shown in Table 1.1.

                                         Table 1.1: Types of Regulated Particulate Matter

                      Type *                              Description                               Date Regulated

                   PM10        Particles less than or equal to 10 microns in diameter (about              1987
                               one-seventh the diameter of a human hair).

                   PM2.5       “Fine” particles, which are less than or equal to 2.5 microns in           1997
                               diameter (about 1/30th the diameter of a human hair).

                  *     A new PM standard – PMc (known as “coarse”) – is being considered by EPA to apply to the
                        fraction of PM between 2.5 and 10 microns. EPA’s current schedule should provide for a
                        proposal of this standard in late 2004 and a final standard in late 2005.


                  The newer category – PM2.5 – was established as a National Ambient Air Quality
                  Standard in 1997 as a result of a growing body of scientific evidence indicating
                  that these fine particles are most damaging to health since they can penetrate the
                  lung tissues easier and deeper. When breathed, particulate matter can accumulate
                  in the respiratory system. Fine particulate matter is associated with such adverse
                  health effects as heart and lung disease and increased respiratory disease, and
                  symptoms such as asthma, decreased lung function, and even premature death.
                  Sensitive groups that appear to be at greatest risk include the elderly, individuals
                  with cardiopulmonary disease, and children. Also, PM is a major cause of reduced
                  visibility, and adversely impacts vegetation and ecosystems.

                  EPA’s short-term goal for the PM program is to determine which areas exceed
                  EPA’s standards and by how much. Longer term PM goals include: (1) identifying
                  and characterizing emissions sources2; (2) developing State, local, and tribal
                  control strategies; (3) gauging the success of Federal, State, local, tribal, and


         2
          When referring to emissions sources, unless otherwise stated, we are also referring to the larger category of
sources such as mobile, industrial, etc.

                                                             2
industry activities to protect human health; and (4) aiding in the Nation’s homeland
security efforts by early detection of selected biological and chemical terrorist
attacks.

What Are the Uses of Ambient PM Air Monitoring Data?

Ambient air monitoring systems are a critical part of the nation’s air program
infrastructure. Methods for measuring PM in the air are used to both set and
implement the standards. The United States spends over $200 million annually on
ambient air monitoring. Moreover, industry spends billions to implement emission
reduction strategies. Ambient air monitoring data provide an important means of
determining emission reduction progress and whether our nation is achieving its
environmental goals. Ambient air monitoring data from PM monitors are used to
make major decisions by stakeholders, including scientists, researchers,
lawmakers, and the public. Some of the key uses of ambient PM air monitoring
data are depicted in Table 1.2.

                  Table 1.2: Key Uses of Ambient PM Air Monitoring Data

 ‚   Characterize air quality and the associated health and ecosystem impacts

 ‚   Establish air quality standards

 ‚   Identify areas exceeding the air quality standards

 ‚   Identify pollution sources

 ‚   Activate emergency control procedures that prevent or alleviate air pollution episodes

 ‚   Develop emission reduction and control strategies

 ‚   Review/evaluate State Implementation Plans for reducing PM levels

 ‚   Track Agency progress in reducing PM levels

 ‚   Assist research efforts by providing more information about:
     • composition; interaction; and sources of PM;
     C level of PM concentrations that are considered harmful (dose);
     C length of time people are in contact with PM (exposure); and
     C source-to-dose pathways and the critical routes of exposure.

 ‚   Support the Agency’s short- and long-term planning through the use of air quality models to project the
     impact on air quality from implementation of new regulations and controls.

 ‚   Support the Air Quality Index, which presents daily information on many harmful pollutants. The Air
     Quality Index may be found in various media, such as USA Today and the Weather Channel.

 ‚   Enable EPA to report its progress to Congress and the public, in accordance with the Government
     Performance and Results Act and EPA’s Goal 1, “Clean Air.”


In 1999, the EPA convened a “National Monitoring Strategy Committee” of
representatives from EPA and state, local, and tribal agencies to take an overall
assessment of the nation’s air monitoring networks and make recommendations for
improving network design. They developed a National Monitoring Strategy to re-
shape the monitoring program to accommodate both national and local needs,
improve information flow to the public, and incorporate new technologies and
measurements.
                                            3
What Is Methods Development?

Because EPA has not yet developed a comprehensive definition of which activities
comprise methods development, we identified key PM methods development
activities through discussions with more than 50 internal and external stakeholders.
According to these stakeholders, methods development is an integrated system for
meeting the information and data needs of the many users of ambient air
monitoring data. In particular, “methods development” is the process of
developing, evaluating, and validating the methods and associated instrumentation
for reliable, valid, and complete measurements of PM in ambient air. To achieve
environmental data needs, the methods development process requires considerable
time and highly-developed expertise since it includes: research and development;
testing and analysis; operational demonstration to identify and validate state-of-the-
art air sampling and measuring technologies; measurement against standards; and
development of monitoring instrumentation. These activities are a key component
for each type of PM regulated.

After the particular method and associated durable instrumentation is developed, it
should be field tested (validated) to ensure it (1) meets specifications,
(2) successfully operates under real world conditions, and (3) generates quality data
that will meet the users’ needs. Regarding the latter activity, EPA requires that
environmental data meet the Agency’s data quality objectives, wherein data must
meet certain precision, accuracy, completeness, representativeness, and
comparability parameters before users can make reliable decisions from the data.
Ideally, the newly developed method should also collect and analyze data in the
most cost-effective manner, taking into consideration life cycle costs such as
operation and maintenance expenses.

What Is the Primary Monitor Used to Measure PM2.5?

The filter-based mass-only monitor is the Federal Reference Method (FRM) that
EPA designated for use in measuring PM2.5. When the PM2.5 regulation was issued
in 1997, it essentially prescribed the size particle that would be measured, the
instrumentation that must be used, how the monitor must be operated, and the data
quality objectives. State and local agencies must use this FRM method when
gathering data to determine whether an area is in attainment of the PM2.5 standard.
Agency officials indicated that the development of a filter-based FRM was
consistent with their scientific understanding of PM, the available technology, and
the stringent requirements for methods performance that must be met to achieve
the required health protection.

By drawing air across a teflon filter at a pre-determined flow rate, filter-based
mass-only monitors collect PM2.5 particles over a 24-hour period. Before each
filter is placed in the monitor, the State or local agency must weigh it. Then, after
24 hours in the monitoring device, the exposed filter is taken to a laboratory,
conditioned to account for humidity and other factors, and weighed again. The
difference in the before and after weight of a filter represents the amount of PM2.5
                                   4
         mass that gathered on the filter, and is an estimate of the amount of fine particulate
         matter that a person would breathe in a 24-hour period. According to the 2002
         database provided by the Office of Air and Radiation’s Office of Air Quality
         Planning and Standards (OAQPS), of the 2,033 PM2.5 monitors nationwide, 1,616
         were FRM filter-based mass-only monitors. The FRM filter monitors are used to
         identify those areas of the country where people are exposed to unhealthy levels of
         airborne particulate matter, and determine the extent that such levels exceed the
         PM2.5 standard. The remaining monitors are used to help ascertain the source and
         composition of the harmful airborne PM.

         How Many People Live in Areas That Exceed the PM2.5 Standard?

         Although data limitations have slowed EPA progress in making non-attainment
         designations to date, the Agency has developed preliminary estimates of the
         designations for the United States. As shown in Table 1.3 below, as of January
         2003, EPA estimated that at least one-third of the Nation’s population lived in
         areas that would eventually be classified as exceeding the PM2.5 standard.

                   Table 1.3: EPA’s Preliminary Estimates of PM2.5 Designation Status

                                                               Estimated         Estimated Percent
                       Designation Status                  Population Affected     of Population
          Attainment                                            56,000,000             20%

          Non-attainment                                       101,000,000             35%

          Incomplete Data (status not yet determined)           79,000,000             28%

          Unclassified (no monitors; attainment assumed)        49,000,000             17%

          Total                                                285,000,000             100%




Scope and Methodology

         To assess whether EPA has supported method development activities to the extent
         necessary to achieve the goals of the PM program, we reviewed numerous reports.
         We also discussed the PM program with more than 50 key stakeholders, from
         EPA, selected States and local agencies, equipment manufacturers, key industry
         organizations, key health and environmental organizations, and academics.
         Additionally, we observed a PM ambient air monitoring station that included
         various types of monitors, and also visited a laboratory responsible for analyzing
         PM2.5 filters. We conducted this evaluation in accordance with Government
         Auditing Standards, issued by the Comptroller General of the United States.
         Additional details on our scope and methodology are in Appendix A. Our
         fieldwork was conducted from November 2002 to May 2003.




                                                    5
6
                                              Chapter 2
         Declining Methods Development Support
       Hampers Timely Achievement of Program Goals
                  EPA is about 18 months3 behind schedule in obtaining sufficient PM2.5 monitoring
                  data needed to determine areas with excess PM2.5 levels, also known as making
                  attainment designations. However, EPA plans to make final designations by the
                  end of 2004 which would reduce the delay from 18 months to about 9 months.
                  State and local agencies encountered trouble operating about one-third of their
                  monitors as they endeavored to obtain data on PM2.5 levels in their areas.
                  A significant reason for the problems encountered was a gradual and largely
                  unintended decline in EPA’s methods development activities related to PM over
                  the last decade. EPA has been aware of the problems with measuring PM, and
                  many in the Agency have worked diligently to correct those problems. Still, these
                  problems increased State, local, and tribal agency labor costs and resulted in data
                  from many PM2.5 monitoring sites being lost, delayed, or determined to be
                  unusable. Consequently, as the Agency moves forward, these delays may impact
                  EPA’s progress in reducing human exposure to unhealthy levels of PM.

Unmet Data Needs Hampered Efforts

                  Identification of PM2.5 Non-attainment Areas Delayed

                  State and local agencies were to begin collecting 3 years of PM2.5 air monitoring
                  data in January 1999, with 3 years of data available by January 2002. Based on the
                  data, areas were to be designated in either “attainment” or “non-attainment.” An
                  area is considered non-attainment if the PM2.5 levels exceed the PM2.5 standard.4
                  Areas in non-attainment must comply with Federal regulations designed to protect
                  public health and the environment, including the development and implementation
                  of emissions control strategies to reduce emissions of fine particulate matter. Such
                  efforts are costly and often take years to achieve program goals. EPA estimates
                  compliance with PM2.5 emissions control strategies will cost industry $37 billion
                  annually by 2010. Therefore, the completeness, accuracy, and reliability of
                  ambient monitoring data are critical.



         3
          Section 107 of the 1990 Clean Air Act required States to designate attainment upon promulgation of the
PM2.5 National Ambient Air Quality Standard. Recognizing the monitoring network first needed to be deployed to
collect sufficient data, the 1998 Transportation Equity Act for the 21st Century allowed the States 3 years, until
September 2001, to gather the data. However, a complete set of data was not available until July 2003.
         4
         The PM2.5 standard requires that the annual arithmetic mean be less than or equal to 15 micrograms per
cubic meter of ambient air, and that the 98th percentile readings for peak concentrations over a 24-hour period be less
than 65 micrograms per cubic meter of ambient air.
                                                             7
Because the FRM monitors were deployed between 1998 and 2000, the 3 years of
data were staggered. Initially, EPA planned to make the first designations in 2002
and the last in 2005. However, EPA now does not plan to make the first
designations until December 2004, as much as 18 months behind schedule.
Consequently, the dates for when States in non-attainment would be required to
submit State Implementation Plans detailing their control strategies, as well as
when they would expect to be in an attainment status, were also delayed, as shown
in Table 2-1.

      Table 2.1: Implementation of PM2.5 National Ambient Air Quality Standard
                        and Related Designation Process

                                                               Clean Air Act       Current
                         Activity                             Required Dates   Estimated Dates
EPA Issues PM2.5 National Ambient Air Quality Standard             1997             1997

3 Years of PM2.5 Data Available For Attainment Designations        2001             2003

EPA Designates PM2.5 Non-attainment Areas                          2002             2004

States Submit PM2.5 Control Strategies                             2005             2007

States Have Up to 5 Years To Meet PM2.5 Standards                2007-2012        2009-2014
(5-Year Extension Possible)



Difficulties Encountered in Putting Monitoring Network in Place

EPA experienced difficulty in implementing the PM2.5 monitoring network,
resulting in incomplete, missing, or inaccurate data. For example, from 1999 to
2001, equipment malfunction and start-up problems contributed to 439 of 1,202,
or 37 percent, of the PM2.5 monitoring sites failing to operate in one or more of the
required 12 quarters (3 years). However, EPA officials believe that the issues and
problems encountered by the States were not atypical for the deployment of a large
network of new monitors across the country.

Public concern over the health effects of PM2.5 sparked presidential and
congressional directives to accelerate the PM2.5 ambient air monitoring network
implementation. As a result, EPA officials acknowledged that they hurried to
implement the PM2.5 filter-based mass-only monitoring network at a time when the
Agency had experienced a decline in resources devoted to methods development
activities, as well as a decline in methods expertise. Consequently, EPA did not
fully develop several key aspects of planning, implementing, and maintaining the
PM2.5 network, resulting in: (1) limited PM2.5 ambient air monitor options; (2) lack
of sufficient field testing; and (3) monitors that were not properly installed,
maintained, and operated.

    Limited PM2.5 Ambient Air Monitor Options. State officials told us that they
    had little involvement in the design and development of the PM2.5 ambient air
    monitors that they were expected to use to implement the PM2.5 network. They
    believed they should have been continually involved through the design,
                                           8
                     development, and selection of the new PM2.5 method. Largely because of the
                     decline in EPA’s resources and expertise for developing new methods, filter-
                     based mass-only monitors were the only viable option when ambient air
                     monitoring implementation began in 1998. According to States, monitor
                     manufacturers, and academics we contacted, had EPA invested more in
                     methods development, the Agency would have had more choices regarding the
                     types of monitors to deploy and more knowledge about how the PM2.5 network
                     should be configured.

                     Throughout most of the 1990s, ORD had been primarily responsible for
                     developing the PM2.5 standard and the associated monitoring methods.
                     However, OAQPS was undergoing an effort to update and improve its ambient
                     air data quality objectives at the same time that ORD was developing the PM2.5
                     standard, yet the two offices did not coordinate their efforts. As a result of the
                     tight timeframes and inadequate coordination, OAQPS officials said that the
                     PM2.5 standard imposed by EPA’s FRM standard may have been too stringent
                     in relation to the quality of data needed, and that this effectively precluded
                     continuous PM2.5 monitoring methods as a possible option for meeting the
                     FRM equivalency determinations. OAQPS and ORD are re-evaluating the data
                     quality objectives for PM2.5. Such a modification could result in allowing
                     certain PM2.5 continuous methods to demonstrate that they meet the PM2.5 data
                     quality objectives and could be used in lieu of filter monitors. This would
                     provide EPA with more flexibility in implementing its monitoring program and
                     provide a wider array of more useful data.

                     Lack of Sufficient Field Testing. When a new monitoring method is
                     developed, field testing is a vital step in ensuring that the monitor performs
                     adequately under varied operating conditions before the network is fully
                     deployed. EPA and monitor manufacturers indicated time constraints forced
                     EPA to purchase and deploy filter-based mass-only PM2.5 monitors without full
                     and adequate field testing under real-world conditions. Consequently,
                     malfunctions occurred that resulted in a loss of data. For example, monitors
                     were only field tested in warm conditions, and some monitors malfunctioned in
                     cold climates. A General Accounting Office (GAO) report5 and our
                     discussions with EPA personnel indicated insufficient field testing resulted in
                     the following types of problems with one-third of the filter-based mass-only
                     PM2.5 monitors:

                     C Oil freezing and water condensation causing monitor malfunctions.
                     C Filter cassettes jamming in cold weather.
                     C Improper sealing on monitor access doors allowing dust into the monitor
                         and contaminating the filter.



        5
         GAO Report: Air Pollution - EPA’s Actions to Resolve Concerns With the Fine Particulate Monitoring
Program (August 1999, GAO/RCED-99-215).
                                                       9
             C Monitor cooling fans pulling in dust-containing coarse material and other
                 unwanted particles.
             C New readings overwriting prior ones due to software malfunction.

             Our discussions with over 50 stakeholders, including ambient air monitor
             manufacturers, environmental groups, industry associations, State and local
             agency officials, and EPA, suggested that a principal underlying reason such
             problems occurred related largely to the lack of continued investment in
             methods development activities by EPA.

             Monitors Not Properly Installed, Maintained, and Operated. To maximize
             data quality and minimize post-deployment ambient air monitoring costs,
             written standard operating procedures need to be developed prior to monitor
             deployment. Due to limited resources and time constraints, EPA did not
             provide written standard operating procedures to State and local agencies prior
             to PM2.5 monitor deployment. According to State and local agency officials
             contacted, such guidance would have helped ensure consistency in the
             operation of the monitors, provided direction on repairing mechanical
             malfunctions, and more fully explained how to handle filters before and after
             sampling. Because EPA did not prepare such procedures, many States
             developed their own, which resulted in inconsistencies in the data collected.
             Due to insufficient training and support from EPA, State and local officials said
             they struggled with the installation, operation, and maintenance of the new
             monitors, particularly at the outset. For example, they noted that:

             •   Insufficient troubleshooting instructions resulted in monitors needing to be
                 shipped back to the manufacturer rather than be repaired on-site.
             •   EPA did not initially provide funding for spare parts and monitors.
             •   States had difficulty establishing weighing facilities to handle the massive
                 influx of filters to be analyzed.

          Operating in a reactive mode, EPA and State and local agencies corrected
          implementation problems as they arose. According to Agency officials, the
          deployment of the network was extremely challenging and EPA could not predict
          in advance the issues that arose. They also said that, taking into consideration the
          magnitude of the effort and the time frames allowed, they believe their deployment
          of the PM2.5 network was quite successful. Still, the problems encountered
          increased State and local agency labor costs and resulted in data from many PM2.5
          monitoring sites being lost, delayed, or determined to be unusable.

Several Factors Contributed to Decline in Methods Development

          EPA’s reduction in methods development activities was a gradual process that
          began in the early 1990s before the current PM2.5 standard was implemented.
          Although most of the reduction was largely unintended, some was knowingly


                                           10
                carried out. For example, the 1996 Exit Strategy6 written by ORD and OAQPS
                described ORD’s plans to provide less support to OAQPS in areas such as routine
                technical support to sustain the network and quality assurance/quality control work,
                activities that were related to methods development. However, there was general
                consensus among the many stakeholders we contacted that PM methods
                development warrants increased attention by EPA, not less. According to Agency
                officials, key factors that contributed to the gradual decline in PM2.5 methods
                development included the loss of technical expertise due to retirements, a shift in
                ORD priorities, and the lack of a comprehensive methods development strategy.
                Details follow.

                    Attrition Resulted In Loss of In-House Expertise

                    Agency officials said the loss of expertise has been occurring for years and will
                    likely continue. Many current EPA employees began their careers when EPA
                    was founded in 1970 and have reached retirement eligibility. EPA’s problem
                    of recruiting and retaining first-rate scientists was recently discussed in a
                    January 2003 report by GAO, Major Management Challenges and Program
                    Risks. ORD has recognized the loss of expertise and its impact on methods
                    development activities, and has initiated efforts to overcome it. For example,
                    ORD recently hired a national PM methods expert; has developed a hiring
                    strategy with plans to double the methods development staff (from
                    approximately four to eight individuals); and has implemented a Post Doctorate
                    Program aimed at attracting and retaining young, qualified staff. However, we
                    believe more needs to be done under a formal process. GAO’s Human Capital
                    guide, “Human Capital: A Self-Assessment Checklist for Agency Leaders”
                    (GAO/OGC-00-14G), September 2000, provides guidance that could help
                    EPA managers improve their human capital systems, including hiring,
                    retention, and succession planning.

                    ORD Priorities Shifted to Other PM Research

                    Many stakeholders described how ORD personnel moved toward research and
                    away from the routine tasks associated with sustaining the air monitoring
                    network and developing new methods. In 1997, ORD found that airborne fine
                    particulate matter was much more of a health hazard than previously thought,
                    and ORD’s priorities shifted to conducting more fine particulate matter
                    research, partly at the expense of methods development. Agency officials said
                    that a decline in expertise also contributed to the decision to shift focus because
                    it became increasingly challenging to carry out existing duties with the
                    continual loss of expertise. Another cause for ORD’s shift to more traditional
                    research activities, at the unintended expense of the Agency’s methods
                    development efforts, were the results of the National Research Council’s


        6
        November 1996, NERL/ORD Exit Strategy - Quality Assurance Support To OAQPS/OAR
(Document is a description of decreased quality assurance support provided by ORD to OAQPS).
                                                         11
independent assessment of EPA’s fine particulate matter research efforts. The
Council made 10 recommendations emphasizing the need for more and better
research on PM health effects as they relate to risk, dose, and exposure to fine
particulate matter. Also, as part of performing this needed research, the
Council cited the need for increased methods development activities by EPA to
develop new and improved monitoring instrumentation. However, the
Council’s more resounding message, as interpreted by EPA officials, was the
need to increase PM2.5 research to better understand the relationship between
fine particulate matter exposure and human health.

Comprehensive Methods Development Strategy Lacking

EPA does not have a system or process that clearly defines the essential
activities that comprise PM methods development, nor is there an explicit
mechanism for determining whether these activities are performed at a
sufficient level. A comprehensive methods development strategy would ensure
that methods activities are clearly defined and tracked, increase the likelihood
that needed activities are properly funded, and guard against unintended
decreases. Although there was no comprehensive methods development
strategy, we were able to identify through extensive interviews and research
some of EPA’s key methods development, shown in Table 2.2.

                  Table 2.2: Key Methods Development Activities

                                                Activities
 ‚   Pro-actively Researching New Monitoring Techniques and Instrumentation

 ‚   Identifying Users of the Data and Assessing Their Needs

 ‚   Developing Standards and Associated Methods

 ‚   Designing Instrumentation and Sampling Protocols

 ‚   Field Testing/Validating Instrumentation

 ‚   Modifying Methods, Instrumentation, and Sampling Protocols

 ‚   Configuring Network

 ‚   Deploying and Installing Instruments

 ‚   Operating, Maintaining, and Supporting the Network

 ‚   Re-assessing Networks and Seeking Improvement


Both OAQPS and ORD officials agree that the activities listed above are vital
to successfully supporting the Agency’s PM monitoring program, and
acknowledge that there were unintended reductions in the support for these
activities that adversely impacted the PM2.5 program. We also noted that
EPA’s methods development activities for PM were not tracked as a separate
budget line item, which may have contributed to the decline in its emphasis.
We believe such tracking is needed to adequately monitor the program.
Further, even though there have been budget increases for PM research since
                                      12
                    1997, ORD and OAQPS confirmed that the additional funding did not go
                    toward methods development. The Government Performance and Results Act
                    of 1993 intended for Federal programs to link resources to activities that
                    produce results, and the Office of Inspector General and others have identified
                    EPA’s difficulty in linking mission to management as a key management
                    challenge.7

Conclusions

                Methods development activities are a fundamental component in EPA’s efforts to
                ensure that PM2.5 ambient monitors produce reliable, valid, and complete data on
                environmental conditions. We found that a significant reason that problems
                occurred in operating many of the PM2.5 monitors was due to the Agency’s
                unintended reductions in the support for PM methods development activities.
                EPA has worked diligently to correct problems, and the Agency expects to have
                sufficient data to make non-attainment designations by December 2004. However,
                EPA needs new and different PM2.5 monitors to meet its goals. To achieve better
                results from these future PM2.5 air monitoring efforts and other PM program goals,
                the Agency should develop a comprehensive strategy that would ensure that
                methods development activities are clearly defined and tracked, and properly
                funded.

Recommendations

                We recommend that the Assistant Administrator for Air and Radiation, in
                collaboration with the Assistant Administrator for Research and Development:

                2-1.    Develop a comprehensive PM methods development strategy that:

                        (a)   identifies the methods development activities critical to meeting the
                              Agency’s short- and long-term PM program goals;
                        (b)   ensures that these PM methods activities are clearly defined, tracked,
                              and appropriately funded;
                        (c)   defines the roles and responsibilities of the EPA offices responsible
                              for conducting PM methods development activities; and
                        (d)   guards against any unintended decrease in PM methods activities,
                              including the impact of lost program expertise through retirement or
                              career transition.

                2-2.     Use the EPA data quality objectives process to re-evaluate the PM2.5
                         program’s data quality objectives and the associated PM2.5 ambient air



        7
         EPA’s Progress in Using the Government Performance and Results Act to Manage for Results [EPA-OIG
2001-B-000001], June 13, 2001; Audit of EPA’s Fiscal 2000 Financial Statements [EPA-OIG 2001-1-00107],
February 28, 2001. EPA - Major Management Challenges and Program Risks [GAO-01-257], January 2001.
                                                      13
                 monitoring methods requirements, and ensure that both are appropriate to
                 achieve the short- and long-term goals of the program.

         We also recommend that the Assistant Administrator for Research and
         Development:

         2-3.     Include in the ongoing revisions to ORD’s Human Capital Strategy
                  explicit measures to minimize the impact of losing PM methods
                  development expertise, and that ORD use GAO’s Human Capital guide,
                  “Human Capital: A Self-Assessment Checklist for Agency Leaders,” to
                  help managers improve their human capital systems, particularly for
                  hiring, retention, and succession planning.

Agency Comments and OIG Evaluation

         EPA made detailed comments to our draft report and, where appropriate, we made
         revisions. The Agency generally agreed with the recommendations in this chapter.
         With respect to Recommendation 2-1, the Agency supported the recommendation
         to develop a comprehensive methods development strategy, but commented that a
         strategy that focuses on PM2.5 is too narrow. We agree, and are now
         recommending that EPA develop a comprehensive particulate matter strategy.
         The Agency’s consolidated response and our evaluation of that consolidated
         response are in Appendices B and C, respectively.




                                         14
                                  Chapter 3
           Limitations of Existing PM Monitors
          Need To Be Addressed By Increasing
             Methods Development Activities
          EPA has not ensured that an appropriate monitoring network is in place to best
          enable States and local agencies to develop plans to effectively reduce excess
          levels of PM. Increased methods development activities will be needed to address
          future PM monitoring needs, such as supporting homeland security and enabling
          areas to meet future PM standards. For example, EPA is preparing to develop a
          new PM coarse (PMC) standard in 2004, and EPA is working with the Department
          of Homeland Security to develop a continuous ambient air monitoring method
          capable of identifying a biological or chemical attack. Manufacturers and others
          told us that EPA will need to increase its support of PM methods development
          activities, improve its efforts to involve external stakeholders early in the methods
          development process, and do more to enhance the development of alternative PM
          monitors if earlier problems experienced in the PM2.5 program are to be avoided as
          the Agency mobilizes to meet these other PM program goals.

Use of Other Monitor Types Should Be Considered

          Each type of PM monitor serves a valuable purpose, including the filter-based
          mass-only monitor used as the approved FRM PM2.5 standard to protect public
          health. However, Agency officials said that all of the types of PM monitors need
          improvement. Many of the stakeholders we contacted said EPA needs to work
          with industry/manufacturers to improve the present limitations of PM monitors in
          three areas – monitor capability, data collection frequency, and cost. Using the
          Clean Air Scientific Advisory Committee process would provide the appropriate
          framework for such a government-industry partnership, ensuring that such
          activities are transparent to all interested and affected parties, and that such parties
          have an opportunity to provide input into the process.

          Filter-based mass-only monitors are the primary type of monitors being used to
          measure PM, but many of the stakeholders we contacted said two other types of
          PM monitors show promise, although they also have limitations. Both types –
          continuous mass monitors and speciation monitors – are available and have been
          used to develop certain types of PM data for specific applications. A general
          description of each is in Table 3.1.




                                             15
                                  Table 3.1: Two Alternate Types of PM Monitors

    Type                                                         Description

Continuous          Unlike the filter monitor, which measures the weight of a filter after a 24-hour period and
Mass                compares it to its weight prior to sampling, a continuous mass monitor analyzes and records the
Monitors            concentration of the particulate matter that pass through the sampling chamber, and then
                    mathematically calculates the mass of the particulate matter. No filter handling is involved, nor is
                    there a need for subsequent laboratory analysis. These monitors can record PM data as
                    frequently as every 5 minutes, but usually do so in 1-hour increments. Different continuous
                    monitors may use different analytical techniques, depending on what is being measured. For
                    example, to analyze for sulfates a flame ionization analytical technique may be used, while for
                    nitrates a chemiluminescence analytical technique may be used.

Speciation          Speciation monitors identify the make-up of the particulate matter, which is necessary to trace the
Monitors            sources of pollution and to better understand health effects of the particulate matter. These
                    monitors generally use several different inlet tubes and several different filters (nylon, teflon,
                    quartz) to collect suspected harmful components of the PM mixture, such as acids, metals, or
                    organic carbon. The filters are analyzed in a laboratory using many of the same analytical
                    techniques discussed above. Speciation data are critical to determining the toxicity of the
                    particulate matter and developing pollution abatement strategies. Most chemical speciation
                    monitors are filter-based, but EPA is experimenting with continuous speciation instruments.



                    Table 3.2 below illustrates some of the strengths and limitations of the basic
                    PM monitor types currently in use. [Note: Check mark (T) indicates monitor
                    strengths; no check mark indicates a monitor limitation.]

                    Table 3.2: Strengths and Limitations of Basic Types of PM Monitors

                                                       Filter-Based      Continuous       Filter-Based      Continuous
                      Attribute                            Mass            Mass           Speciation1       Speciation2
Used for Designations                                        T             Potential
Least Expensive Capital Cost                                 T
Minimal Operational/Life Cycle Costs                                                                              T
Identifies pollution source and PM composition                                                  T                 T
Real time data                                                                 T                                  T
Filter can be stored (historical record)                     T                                  T
Supports mapping/modeling                                 Minimal              T                T                 T
Supports health research                                  Minimal              T                T                 T
Identifies PM levels during day                                                T                                  T
Air Quality Index                                                              T
1/ Filter-based speciation monitors measure PM constituents by weight in a specified period of time.
2/ Continuous speciation monitors measure PM constituents by concentration at continual specified intervals.


                    All current PM monitors, including the PM2.5 FRM mass-only monitors, have a
                    limitation related to volatility (evaporation) for nitrates and some organics. When
                    temperatures rise, the nitrate or organic portion of the particulate matter may
                    volatilize, thus understating the amount of PM2.5 in the air. Monitors that rely on
                    filters require that filters be refrigerated after collection to avoid some of this, but
                    in high nitrate areas, volatilization still occurs. For continuous monitors, the
                    instruments actually heat the sample to remove moisture from the particulate
                    matter for a more reliable, valid, and complete measurement; however, this heating
                                                            16
process causes some degree of volatilization. While volatilization may never be
entirely eliminated, attempts are being made to minimize the impact of this process
on continuous measurements.

It should be noted that cost plays a factor in determining which PM monitors to
use. As shown in Table 3.3, capital costs of PM2.5 monitors can range from
$11,000 to $85,000, and annual operating costs from $8,000 to $53,000.

               Table 3.3: Cost to Purchase and Operate PM2.5 PM Monitors

                                                         Estimated Costs
                                                                  Annual Operation and
               Monitor Type                    Capital               Maintenance
 Filter-Based Speciation                       $20,000                     $53,000
 Filter-Based Mass                        $11,000 - $14,000         $20,000 - $35,000
 Continuous Speciation                         $85,000                     $20,000
 (nitrate, sulfate, and carbon)
 Continuous Mass                               $20,000                      $8,000


The filter-based mass-only equipment has the lowest initial cost but requires more
operation and maintenance resources because it is labor intensive (collection and
analysis) and requires frequent material replacement (a new filter every 24 hours).

Advanced Monitors Are Needed to Effectively Reduce PM Levels

EPA recognizes the need for other types of monitors if it is to achieve its PM
program goals. For example, according to ORD’s September 2001 Draft
Multi-year Plan for Particulate Matter Research:

      Methodology must be developed for continuous and more accurate
      measurements of PM mass and components such as nitrates, metals, and
      organic and elemental carbons. This methodology will then be applied to
      specific PM characteristics which toxicology studies indicate may be
      responsible for adverse health effects.

Monitor manufacturers and State and EPA officials that we contacted agreed that
existing monitors need to be modified and new monitors created if EPA is to meet
the other needs for PM data. Many also believed continuous mass and continuous
speciation monitors are among the most promising near-term technologies,
although Agency officials stated that much more research is needed. OAQPS’
National Monitoring Strategy recommends the replacement of 50 percent of PM2.5
filter-based monitors with continuously operating ones, and notes network
assessments should be used to determine whether goals and objectives are being
met in the most efficient way. EPA will need to ensure that all PM methods fully
address data needs for both short- and long-term goals of all PM programs and
that, prior to implementation, the proposed methods are peer reviewed.


                                   17
        Also, although the filter-based mass-only monitoring network is close to obtaining
        the required 3 years of data for achieving the short-term goal of making attainment
        designations, the network will need to include the capacity to determine particulate
        matter origin and composition on a national, regional, and local basis to effectively
        measure its progress in achieving longer term goals. To determine where pollution
        is coming from, States must identify the sources of PM2.5 and the extent to which
        each source contributes to the overall levels. Currently, over 93 percent (1,891 of
        2,033) of EPA’s PM2.5 ambient air monitoring network consists of monitors that
        only measure particulate matter mass, with less than 7 percent (1428 of 2,033)
        obtaining data on particulate matter composition and origin. In its PM2.5
        Implementation Plan, EPA said 300 speciation monitors – more than double the
        number presently deployed – would be needed to obtain data on the composition
        and origin of PM2.5.

        Generally, PM2.5 consists of five substances: sulfate, nitrate, organic carbon,
        elemental carbon, and crustal material. However, the composition of a particulate
        matter differs in various parts of the country. For example, particulate matter in
        the eastern half of the country is comprised mainly of sulfate, while particulate
        matter in the northwest consists primarily of organic carbon. Therefore, it is
        important for States to know the specific composition of PM2.5 in its area so that it
        can take the most appropriate corrective actions. Particulate matter composition
        also influences the type of monitor needed. Chart 3.1 shows how the composition
        of PM2.5 particles varies across the continental United States.


                          C h a rt 3 .1 V a ria tio n s o f P M 2 .5 C o m p o s itio n




          R e la tive co m p o sitio n o f P M 2 .5
          p a rtic le is illu s tra te d b y th e
          fo llo w in g co lo r sc h e m e :
                  S u lfa te
                  N itra te
                  O rg a n ic C arb o n
                  E le m e n ta l C a rb o n
                  C ru s ta l M a te rial


        Source - OIG-developed chart based on data obtained from
                 EPA’s 1999 National Air Quality and Emissions Trends Report.




8
 The 142 speciation monitors are based on information provided by OAQPS in January 2003.
                                               18
After an area is designated non-attainment, States will develop and submit for EPA
approval their State Implementation Plans describing the actions that will be taken
to bring areas into attainment with the PM2.5 standard. Among other things, the
State’s Implementation Plan should: (1) identify the PM2.5 sources and the levels
contributed by each source; (2) develop, implement, and enforce new controls on
the PM2.5 sources targeted; and (3) determine the level of reductions needed to
bring an area into attainment within required milestones.

Volume 1 of a four-volume National Research Council Report recommended that
EPA first identify the particular components of PM and conduct studies to
understand human exposure and health effects of PM. EPA’s response to this
report is essentially embodied in ORD’s Multi-Year Plan for PM which described
the goals and targets of the PM program. Volume 3 of the National Research
Council report calls for EPA to increase its methods development activities to
better understand particulate matter composition and its impact on health. The
Council stated that EPA’s filter-based mass-only monitors provide limited data and
are not sufficient to address this increased need for health effects data. Four of the
Council’s 10 recommendations cited the need for more and improved speciation
data to better understand the composition of the particulate matter and to what
extent the public is at risk. EPA officials noted that while ORD was redirecting
some internal resources to respond to the National Research Council report, overall
EPA investment in methods work was being augmented by the Supersites Program.
One of the objectives of this program is to develop and test measurement methods.

New Monitors Needed for PMc Program Efforts

ORD and OAQPS are considering the need for a PMC “coarse” standard for
particulate matter between 2.5 microns and 10 microns in diameter. EPA’s
schedule provides for a proposal in late 2004 and a final standard in late 2005.
EPA plans for the PMC standard and the associated ambient air monitors to replace
the current PM10 standard and associated monitors. Manufacturers told us EPA
will need to increase its support of PM methods development activities, improve
its efforts to involve them and other external stakeholders early in the methods
development process, and do more to foster the development of alternative PM
monitors. EPA will also need to ensure that the methods fully address data needs
for both the short- and long-term goals of the PMC program and that, prior to
implementation, the proposed methods are peer reviewed.

EPA officials said there are numerous instruments capable of measuring PMC, and
ORD is conducting field test studies on these instruments. There are numerous
viewpoints on which monitoring method should be defined as the FRM for PMC.
Some officials believe that existing monitors can be modified, while others believe
a new monitor must be developed to measure coarse exclusively. Further, some
believe a monitor must be developed to measure PM2.5 and PMC simultaneously.
Some officials believe a mass weight standard like PM2.5 should be used to identify
how much coarse particulate matter is in the air, while others believe EPA should
regulate by composition, to identify what the toxic components are. To avoid
                                  19
some of the problems encountered while implementing the PM2.5 standard, EPA,
State, and local agencies, and monitor manufacturers agree that the Agency needs
to take a more proactive approach to developing and implementing the PMc
standard.

Support of Homeland Security Also Requires Increased Efforts

The terrorist attacks of September 11, 2001, and the subsequent anthrax releases
expanded EPA’s mission, to include working with other Federal agencies in
protecting our country against the environmental and health consequences of
terrorist acts. Details of EPA’s homeland security responsibilities are described in
EPA’s September 2002 Strategic Plan for Homeland Security. One of EPA’s
primary roles will be providing technical expertise to identify the threat of
biological, chemical, radiological, and other terrorist attacks, as well as responding
to and recovering from such attacks. EPA’s expanded homeland security
responsibilities further demonstrate the need for increased activity in PM methods
development.

One of the homeland security goals is for EPA to work closely with other Federal
and State agencies to identify useful information already available. Under air
protection, a key source of information will be the data collected from the
Agency’s existing ambient air monitoring network. EPA is responsible for
ensuring that its existing monitoring expertise, standards, capabilities, and data are
appropriately integrated into the Agency’s efforts to detect terrorist threats. The
Agency is also to make historic data available to determine trends and background
levels that will aid in establishing baselines for detection. Monitoring data may
also provide a means of detecting anomalies in the ambient air that would indicate
further analysis is warranted. The existing ambient air monitoring network will be
valuable because there already exists an infrastructure of monitoring platforms,
electricity, and land. In addition, EPA has an established working relationship
with State and local agencies that should expedite efforts to develop a monitoring
network for homeland security purposes.

OAQPS officials said their goal is to develop a continuous ambient air monitoring
method that would result in real-time information for identifying a biological or
chemical attack. This network, in combination with other Agency activities, would
aid in tracking any plume of contamination and help to minimize exposure risks.
Agency officials said that the PM network, designed to detect and measure various
size particles found in the air, may aid in efforts to detect and measure bio-agents.
For example, anthrax spores, which typically range in size from 2 to 6 microns, are
potentially within the range of particles that EPA measures with its PM monitors.
However, the current network does not provide data timely enough to readily
detect terrorist attacks, and speciation data takes longer to obtain.

EPA is currently evaluating many types of PM monitors and exploring potential
options for how monitors can help with homeland security efforts. In the event of
a national incident, EPA is the lead agency responsible for decontaminating
                                  20
         affected areas and determining when it is safe to return. To do so, EPA needs to
         enhance the deployable component of its emergency response air monitoring
         efforts to quickly transport mobile/non-stationary monitors to contaminated areas.

Conclusions

         Monitor manufacturers, State, and EPA officials we contacted said that existing
         monitors need to be modified and new monitors created if EPA is to meet the other
         needs for PM data, such as the Agency’s expanded homeland security
         responsibilities since September 11. Presently, the Agency’s monitors do not
         provide information timely enough to readily detect terrorist attacks. However,
         because of the costs associated with developing new monitoring methods and the
         associated instrumentation, manufacturers said EPA will have to take a greater
         leadership role in the development of such monitors, including methods
         development. As EPA moves to develop monitors for addressing longer-term data
         needs, insufficient attention to methods development activities not only presents a
         risk that there will be lost or unusable data and increased operating costs, but also a
         risk that industry will be faced with unnecessary or overly stringent compliance
         costs. With billions of dollars in estimated annual costs of compliance to industry,
         EPA should ensure that the Agency’s data quality objectives process is strictly
         followed in establishing the PMc FRM for the PM coarse standard, keeping in
         mind that methods that are too stringent impose unnecessary costs and methods
         that are too lenient and jeopardize data quality.

Recommendations

         We recommend that the Assistant Administrator for Air and Radiation, in
         collaboration with the Assistant Administrator for Research and Development:

         3-1.   Establish a government-industry partnership that facilitates an objective
                assessment of PM measurement issues that need to be addressed to improve
                PM ambient monitoring capability and data collection frequency at less
                cost, and that provides for transparency and openness to the public.

         3-2.    Enhance the development of cost-effective methods for addressing PMC
                 program goals by:

                 (a) ensuring that the shortcomings of the PM2.5 implementation process
                     will not be repeated;
                 (b) using the EPA data quality objectives process to develop the PMC
                     standard planned for 2004 and the associated ambient air monitoring
                     requirements, and ensuring that both are appropriate to achieve the
                     short- and long-term goals of the PMC program;
                 (c) ensuring sufficient stakeholder involvement in developing the most
                     promising and cost effective monitors for addressing PMC program
                     goals; and

                                           21
                 (d) ensuring that the proposed methods are externally peer reviewed prior
                     to implementation.

         3-3.    Maximize opportunities for utilizing current and newly developed
                 monitors to support and enhance EPA’s Homeland Security efforts.

Agency Comments and OIG Evaluation

         EPA made detailed comments to our draft report and, where appropriate, we made
         revisions. The Agency generally agreed with the recommendations in this chapter.
         With respect to Recommendation 3-1, the Agency did not agree that using the
         Federal Advisory Committee Act would be the best approach to establishing a
         government-industry partnership. EPA believed that using the Clean Air Scientific
         Advisory Committee process would be a suitable alternative. We agree that our
         draft recommendation would have unnecessarily restricted EPA’s options for
         improving PM monitoring methods, and we have modified our recommendation to
         reflect this. The Agency’s consolidated response and our evaluation of that
         response are in Appendices B and C, respectively.




                                         22
                                                                                  Appendix A


                     Details on Scope and Methodology
To assess whether EPA has supported methods development activities to the extent necessary to
achieve the short- and long-term goals of the PM2.5 program, we reviewed numerous reports about
the goals, objectives, and needs of the PM2.5 program, including the EPA’s National Ambient Air
Monitoring Strategy; the National Research Council’s Research Priorities for Airborne
Particulate Matter Volumes I, II, and III; EPA’s Third External Review of Air Quality Criteria
for PM, and EPA’s 1996 Exit Strategy, written by the ORD and OAQPS. We also reviewed a
prior GAO report, EPA’s Actions to Resolve Concerns With the Fine Particulate Monitoring
Program (GAO/RCED-99-215), March 1999. This GAO report addressed problems encountered
by State and local agencies when deploying the PM2.5 filter-based mass-only monitoring network.

Additionally, to understand how various PM monitors are operated and maintained, and how and
what type of information is collected, we observed a PM ambient air monitoring station in
Wilmington, Delaware, equipped with several types of PM monitors, including one or more of the
following: (a) TSP monitor, (b) PM10 filter-based monitor, (c) PM2.5 filter-based mass-only
monitor, (d) PM2.5 continuous mass monitor, and (e) PM2.5 speciation filter-based mass monitor.
To understand the PM2.5 laboratory and analytical processes, we observed a Philadelphia,
Pennsylvania, Department of Health laboratory responsible for analyzing PM2.5 filters.

To gain an understanding of the PM2.5 monitoring network and the role methods development
plays, we conducted interviews with 51 stakeholders. The following table provides information
on interviews conducted, and details on each type of stakeholder follow.

                                                   Interviewees            No.

               Internal        ORD                                          9
               Interviews      OAQPS                                        7
                               EPA Regional Offices                         7
               External        State and Local Air Protection Agencies      9
               Interviews      Air Monitor Manufacturers                    6
                               Health/Environmental Groups                  3
                               Industrial Groups                            3
                               Academia                                     3
                               Air Associations                             2
                               Other Federal Agencies                       2
                  Total                                                    51



The manufacturers of the monitoring equipment are key players in the monitoring program.
Therefore, we contacted the four main vendors that provided EPA with monitors for the PM2.5
program, and two additional smaller vendors for their viewpoints. The six manufacturers were:

•   BGI, Inc.
•   Met One, Inc.
•   Rupprecht & Patashnik Co., Inc.
•   Thermo Andersen, Inc.
                                                   23
•   Tisch Environmental, Inc.
•   URG, Inc.

We interviewed representatives from three health/environmental groups that have been actively
involved in the PM program:

•   American Lung Association, which funds scientific research on lung diseases.
•   Resources for the Future, which performs research related to improving air quality.
•   Natural Resources Defense Council, which works to strengthen and enforce the Clean Air Act.

We interviewed representatives from three key industrial organizations groups that have been
actively involved in the PM program and will likely have constituent members that may be
economically impacted by PM attainment designations:

C American Chemistry Council, which represents leading companies in the chemistry industry.
C American Petroleum Institute, which is doing research on PM.
C National Association of Manufacturers, the nation’s largest industrial trade association.

Because academia is in the forefront of exploratory research in the area of air monitoring
instrumentation, we interviewed scientists from three universities involved in PM research:

C University of Delaware
C University of Maryland
C University of Southern California.

We interviewed the Chairman of the Clean Air Science Advisory Committee subcommittee on
fine particulate matter; representatives from the State and Territorial Air Pollution Program
Administrators/ Association of Local Air Pollution Control Officials (STAPPA/ALAPCO); and
the Lake Michigan Air Directors Consortium. We also interviewed personnel at the Department
of Energy and the National Oceanic and Atmospheric Administration.

As the implementers of the PM2.5 network, State and local air pollution control agencies are
critical to the success of the network. We used a structured interview to discuss with these groups
the issues and challenges associated with the PM network. We interviewed officials from a total
of eight State agencies and one local agency, as well as their corresponding EPA region, to obtain
their input and views of the PM air monitoring network. We did not evaluate any of the State or
local ambient air monitoring programs’ performance as part of these interviews. A table of the
State and local agencies and their corresponding regions follows.




                                                24
                                                      Agency                        Region

     State       New York Department of Environmental Conservation                     2
                 Pennsylvania Department of Environmental Protection                   3
                 South Carolina Department of Health and Environmental Control         4
                 Mississippi Department of Environmental Quality                       4
                 Illinois Environmental Protection Agency                              5
                 Ohio Environmental Protection Agency                                  5
                 Texas Commission on Environmental Quality                             6
                 California Air Resources Board                                        9
     Local       Puget Sound Clean Air Agency (in Washington State)                   10




We solicited input from OAQPS, Region 3, STAPPA/ALAPCO, and States regarding the State
and local agencies we should contact, but we independently made our selection after giving
careful consideration to the input received. We considered the following items (listed in order of
importance) when selecting the nine organizations:

C Number of people estimated to be living in counties expected to be in non-attainment for
   PM2.5. The six larger States selected had 53 of the 179 counties (30 percent) expected to be in
   non-attainment for PM2.5. Those 53 counties had an exposed population of 52 million, which
   represents 63 percent of the country’s exposed population.

C Number of PM monitors in each State: filter-based mass-only, continuous, and
   speciation. We looked for States with the largest and more mature networks, taking into
   account those agencies monitoring the air quality with various types of instruments. The six
   larger States that we selected operated 27 percent of the filter-based mass-only PM2.5 network,
   35 percent of the continuous mass monitors, and 27 percent of the speciation monitors.

C Levels of PM2.5 concentrations detected from filter-based mass-only monitors. We
   reviewed the 1999 levels of PM nationwide from the filter-based mass-only monitors. States
   with higher concentrations were considered.

C Levels of PM2.5 emissions reported to EPA. We reviewed the States’ emissions inventories,
   and considered those areas with higher emissions. Six of the States we selected reported a
   total of 203,000 tons of emissions in 1999. This represents 30 percent of the 673,000 tons of
   emissions nationwide.

C Coverage of various EPA Regions. For the 9 State and local agencies selected, 7 of the 10
   EPA regions were represented.

C Representation of various parts of the United States. In order to account for varying
   geographical and meteorological conditions, we covered six geographic areas of the country:
   Northeast, North Central, Northwest, Southeast, South Central, and Southwest.

C PM Constituents. We identified the five main components of PM2.5 (sulfate, nitrate, organic
   carbon, elemental carbon, and crustal material). The States selected support adequate
   representation of the various PM constituents.
                                                            25
C Recommendations of State selections by OAQPS, Region 3, STAPPA/ALAPCO, and
   States. An OAQPS official suggested we consider talking to one or two States with smaller
   networks and less resources. They explained that the “big” States usually have large budgets
   and more staff to handle new requirements imposed upon them. Our sample includes two
   such “smaller” States: Mississippi and South Carolina.

We selected California, Illinois, Ohio, Pennsylvania, New York, and Texas on the basis that they
were ranked highest in exposed population, size of monitor network, highest PM2.5 concentrations,
and PM2.5 emissions. In addition, these States provided a diverse representation for EPA regional
coverage, geographic sections of the country, and variety of PM constituents.

Mississippi, a smaller State, provides representation in Region 4 and the Southeast. Additionally
Mississippi was ranked toward the middle in exposed population, network size, and emissions.
South Carolina was average in population, monitor network size, and emission levels, and was
fairly high in PM2.5 concentration level. Thus, it represents a smaller State with a mature network
and a fairly significant PM2.5 problem.

We initially were planning to contact Washington State because it had the fourth largest
monitoring network, and it provided us with Northwest representation, where PM is mainly
composed of organic carbon. STAPPA/ALAPCO said that some local agencies are quite
advanced in their approaches to PM2.5 monitoring, and may offer “richness in perspective.” The
Puget Sound Clean Air Agency was selected as an active Agency in Washington’s air monitoring
program.

Detailed information on the States selected is highlighted in the following table.




                                                 26
 Details on Attainment/Nonattainment Estimates, Monitor Types, and Particulate Matter Composition
 (Note: these attainment and non attainment figures are based on preliminary January 2003 EPA estimates and should not
                                       be considered the Agency’s final position.)

                                                                                                               Monitor Types




                                                                                                                                                  Grand Total
                                                                                                                  Filter-Based
                                                                                                  Continuous




                                                                                                                                 Speciation
         States                                         Population                   Percentage                                                                   Primary Composition of PM 2.5
                         Population in Populations in                 Total State
    (ordered by Non                                        not                         in Non                                                                          Particulate Matter
                        Non Attainment Attainment                     Population
Attainment1 population)                                 Monitored                    Attainment
CALIFORNIA 2                21,959,496     10,991,378       920,774     33,871,648      64.83%    4               127                   9         140                     Organic Carbon, Nitrate, Sulfate
ILLINOIS                     7,573,425      2,541,000     2,304,868     12,419,293      60.98%    3                52                   1          56           Organic Carbon, Sulfate, Crustal Material
OHIO                         6,886,794        332,071     4,134,275     11,353,140      60.66%    9                55                  13          77                            Sulfate, Organic Carbon
PENNSYLVANIA                 5,470,027      3,682,085     3,128,942     12,281,054      44.54%    12               57                   6          75                            Sulfate, Organic Carbon
NEW YORK                     5,335,171     10,602,169     3,039,117     18,976,457      28.11%    27               58                   9          94                            Sulfate, Organic Carbon
TEXAS                        4,695,849      9,901,776     6,254,195     20,851,820      22.52%    40               89                             129           Sulfate, Organic Carbon, Crustal Material
GEORGIA                      4,503,857         92,115     3,590,481      8,186,453      55.02%                     44                              44                             Sulfate, Organic Carbon
NORTH CAROLINA               3,543,051      1,280,006     3,226,256      8,049,313      44.02%    7                51                   8          66                             Sulfate, Organic Carbon
MARYLAND                     2,696,617      1,309,805     1,290,064      5,296,486      50.91%                     23                   1          24                             Sulfate, Organic Carbon
TENNESSEE                    2,647,536        435,623     2,606,124      5,689,283      46.54%    1                36                   4          41                             Sulfate, Organic Carbon
ALABAMA                      2,508,058        193,653     1,745,389      4,447,100      56.40%    1                29                   6          36                             Sulfate, Organic Carbon
INDIANA                      2,266,858      1,194,203     2,619,424      6,080,485      37.28%     3               50                   2          55            Organic Carbon, Sulfate, Crustal Material
MICHIGAN                     2,084,543      5,288,118     2,565,783      9,938,444      20.97%     7               36                   6          49            Organic Carbon, Sulfate, Crustal Material
NEW JERSEY                   1,925,149      4,573,812     1,915,389      8,414,350      22.88%    15               25                   5          45                             Sulfate, Organic Carbon
KENTUCKY                     1,780,088        262,542     1,999,139      4,041,769      44.04%                     31                  10          41            Organic Carbon, Sulfate, Crustal Material
SOUTH CAROLINA               1,538,177      1,211,820     1,262,015      4,012,012      38.34%    6                30                   4          40                            Sulfate, Organic Carbon
CONNECTICUT                    824,008      1,998,838       582,719      3,405,565      24.20%    3                17                              20                             Sulfate, Organic Carbon
MASSACHUSETTS                  689,807      5,341,018       318,272      6,349,097      10.86%    4                31                              35                             Sulfate, Organic Carbon
WEST VIRGINIA                  658,406        305,717       844,221      1,808,344      36.41%                     19                              19                             Sulfate, Organic Carbon
DISTRICT OF COLUMBIA           572,059              0             -        572,059     100.00%                      6                               6                             Sulfate, Organic Carbon
ARKANSAS                       536,339        805,886     1,331,175      2,673,400      20.06%                     49                         3    52                             Sulfate, Organic Carbon
MISSISSIPPI                    528,109        863,930     1,452,619      2,844,658      18.56%    4                17                         2    23                            Sulfate, Organic Carbon
DELAWARE                       500,265        283,335             -        783,600      63.84%    2                11                         2    15                             Sulfate, Organic Carbon
MISSOURI                       390,554      2,928,474     2,276,183      5,595,211       6.98%    1                28                         5    34            Organic Carbon, Sulfate, Crustal Material
LOUISIANA                      300,345      2,580,061     1,588,570      4,468,976       6.72%    5                28                              33                     Organic Carbon, Crustal Material
VIRGINIA                       112,278      3,354,344     3,611,893      7,078,515       1.59%                     20                         3    23                             Sulfate, Organic Carbon
IDAHO                           98,453        851,417       344,083      1,293,953       7.61%    13               30                         1    44                             Organic Carbon, Sulfate
UTAH                            90,354      1,877,321       265,494      2,233,169       4.05%                     29                         3    32            Organic Carbon, Sulfate, Crustal Material
IOWA                            60,296      1,392,704     1,473,324      2,926,324       2.06%    31               18                         3    52            Organic Carbon, Sulfate, Crustal Material
PUERTO RICO                     52,393      1,244,915     2,511,302      3,808,610       1.38%    2                10                         1    13                                                  NA
ARIZONA                         51,335      4,419,413       659,884      5,130,632       1.00%                     21                         2    23                             Sulfate, Organic Carbon
WYOMING                         35,804        126,418       331,560        493,782       7.25%                      7                               7            Organic Carbon, Sulfate, Crustal Material
MINNESOTA                       31,671      3,182,639     1,705,169      4,919,479       0.64%     2               58                         4    64            Organic Carbon, Sulfate, Crustal Material
NEW MEXICO                      29,979      1,212,256       576,811      1,819,046       1.65%    11               21                              32                             Organic Carbon, Sulfate
WISCONSIN                       19,680      3,179,563     2,164,432      5,363,675       0.37%     4               36                         6    46            Organic Carbon, Sulfate, Crustal Material
MONTANA                         18,837        620,322       263,036        902,195       2.09%                     19                         2    21                             Organic Carbon, Sulfate
NORTH DAKOTA                     5,737        295,331       341,132        642,200       0.89%     4               14                         3    21            Organic Carbon, Sulfate, Crustal Material
KANSAS                           3,319      1,267,224     1,417,875      2,688,418       0.12%    10               17                         1    28                     Organic Carbon, Crustal Material
WASHINGTON                           0      5,103,104       791,017      5,894,121       0.00%    29               53                         1    83                            Organic Carbon, Sulfate
FLORIDA                              0     12,872,487     3,109,891     15,982,378       0.00%    7                33                         3    43                             Sulfate, Organic Carbon
OREGON                               0      2,508,440       912,959      3,421,399       0.00%                     41                         1    42                             Organic Carbon, Sulfate
COLORADO                             0      3,222,385     1,078,876      4,301,261       0.00%    1                31                         5    37                     Organic Carbon, Crustal Material
OKLAHOMA                             0      2,069,031     1,381,623      3,450,654       0.00%                     32                         2    34                     Organic Carbon, Crustal Material
SOUTH DAKOTA                         0        327,709       427,135        754,844       0.00%    1                21                         1    23                             Sulfate, Organic Carbon
NEBRASKA                             0      1,022,563       688,700      1,711,263       0.00%                     20                         1    21            Organic Carbon, Sulfate, Crustal Material
NEW HAMPSHIRE                        0        998,144       237,642      1,235,786       0.00%    1                20                              21                             Sulfate, Organic Carbon
MAINE                                 0     1,038,282       236,641      1,274,923       0.00%    3                17                              20                             Sulfate, Organic Carbon
ALASKA                                0       453,777       173,155        626,932       0.00%                     13                         1    14                                                  NA
NEVADA                                0     1,756,510       241,747      1,998,257       0.00%                     10                         1    11                      Organic Carbon, Nitrate, Sulfate
RHODE ISLAND                          0       912,238       136,081      1,048,319       0.00%                     11                              11                             Sulfate, Organic Carbon
VERMONT                               0       305,004       303,823        608,827       0.00%    2                 8                         1    11                             Sulfate, Organic Carbon
HAWAII                                0     1,004,250       207,287      1,211,537       0.00%                      7                               7                                                  NA
      1
          Attainment and Non Attainment figures are based on recent EPA estimates.
      2
          States reviewed are indicated in shaded boxes and are also bolded




                                                                            27
28
                                                                                 Appendix B

           Consolidated EPA Response to Draft Report
                                     September 26, 2003

MEMORANDUM

SUBJECT:       Response to the Draft Evaluation Report: Decline in EPA Particulate
               Matter Methods Development Activities May Hamper Timely Achievement
               of Program Goals, Assignment No. 2002-000355

FROM:          Jeffrey R. Holmstead /s/
               Assistant Administrator for Air and Radiation (6101A)

TO:            J. Rick Beusse
               Director for Program Evaluation, Air Quality Issues
               Office of Inspector General

       Thank you for providing us with the opportunity to respond to the draft report from
the Office of Inspector General (OIG). We have discussed the draft report with the Office
of Research and Development (ORD) and share many of the same concerns.

        The Office of Air and Radiation (OAR) and the ORD agree with the OIG authors’
statement that air monitoring methods development is key to supporting the Agency’s
regulatory agenda and science needs. Both offices support the OIG recommendation to
work jointly to establish a methods development program plan. In developing a plan, EPA
will need to balance near-term method needs associated with the 1997 National Ambient
Air Quality Standard (NAAQS) for fine particles (PM2.5) and long-term methods research
to support health and exposure studies and future NAAQS.

         There appears to be a general misunderstanding throughout the report that
                                                                                               See Appendix C
three years of PM2.5 data using the Federal Reference Method (FRM) are unavailable             Note 1
and that this lack of data has delayed the designation of PM2.5 nonattainment areas by
two years. This is simply not true and we cannot concur with that conclusion. We
believe that the delays incurred in designating nonattainment areas and beginning
implementation of this important standard are due to a number of factors, including the
time it took to settle the litigation over the standard, but not to the time necessary to deploy
the network.

       PM2.5 is a new pollutant for which a new FRM had to be established. The schedule
for deploying the new network was extremely ambitious and was, in fact, directed by the
President. The Congress subsequently codified the schedule into law. Moreover, as we
believed that the health consequences of this pollutant were significant, we sought and
obtained full funding from the Congress for state deployment of the network.

       States deployed the PM2.5 FRM network over two years, 1998 and 1999. Three              See Appendix C
                                                                                               Note 1
years of data are now available and on a schedule that is consistent with Congress’
                                              29
expectation and the 40 CFR 58 monitoring regulation published in 1997. The OAR has
already published draft PM2.5 design values, and we expect to have the states’
recommendations on nonattainment designations by mid-February 2004. As a result, we
believe the underlying premise of the report that “EPA has not supported PM2.5 methods
development activities to the extent necessary to achieve the short- and long-range goals of
the PM2.5 program” is not accurate.

        The draft OIG report does not describe particulate matter methods
development in the context of the outcome-oriented design for EPA’s particulate          See Appendix C
                                                                                         Note 2
matter research program in the Particulate Matter Research Program Multi-year Plan.
This design – established with participation by ORD clients – describes the research
needed to achieve short-term outcomes, respond to recommendations by the National
Research Council Committee on Research Priorities for Airborne Particulate Matter, and
help EPA achieve its strategic goals and objectives. As the Scope and Methodology
sections of the draft OIG report do not mention the Particulate Matter Research Program
Multi-year Plan, we believe that this important design context was not considered when the
OIG prepared its observations, findings, and results-in-brief.

        The draft report asserts that EPA provided limited monitoring options for the
                                                                                           See Appendix C
FRM supporting the 1997 NAAQS. We believe the development of a filter-based                Note 3
FRM was consistent with our scientific understanding of PM, the technology
available at the time, and the stringent requirements for method performance that
must be met to achieve the required public health protection. The FRM promulgated as
part of the 1997 NAAQS was reviewed by the Clean Air Scientific Advisory Committee
(CASAC) and underwent public comment along with the NAAQS. EPA considered
comments from both of these reviews in the final decision to promulgate the FRM for
PM2.5. We believe that our work should be evaluated in light of the scientific understanding
that existed at that time, not with current scientific understanding. We have attached a
scientific and historical perspective to place the work in the proper context (Attachment A).

        The OAR and ORD agree there were a number of technical obstacles
                                                                                        See Appendix C
encountered with the initial PM2.5 network deployment that lasted into 1999. These      Note 4
obstacles stemmed from many sources, including methods development, equipment
vendor support, states’ ability to hire and retain staff, and the compressed time
schedule EPA dictated in deploying the network. However, we believe that the issues and
problems encountered were not atypical for the deployment of a large network of new
technology monitors across the entire country. Both the ORD and OAR recognized that
problems and issues in deploying such a large network were likely and worked extremely
hard to address this issues that arose during implementation of the new monitoring
network. Nonetheless, the OAR and ORD did learn many lessons that will be useful in
developing and managing our future monitoring programs.

        With consideration given to these concerns, we do support the spirit of the     See Appendix C
recommendations for forward looking methods development research. We concur             Note 5
with all but one of the recommendations contained within the draft report. We do not
concur with the use the Federal Advisory Committee Act (FACA) to establish a
government-industry partnership (Recommendation 3-1). We believe that the CASAC –
established under the FACA – provides a better alternative. Although we concur with the
                                             30
recommendations to develop a PM methods development strategy (Recommendation 2-1)
and to maximize opportunities to enhance Homeland Security efforts (Recommendation 3-
3), we have comments regarding their implementation. The comments are included in the
attachment to this memorandum

        I am including more detailed information on specific recommendations,
clarifications, and suggested improvements (Attachment B). Please contact Dr. Richard
Scheffe (919-541-4650) of OAR or Tim Watkins (919-541-5114) of ORD if you have any
additional questions.

Attachment

cc:    Lee Byrd, OAQPS/EMAD
       Tom Coda, OAQPS/PRRMS
       Gary Foley, NERL
       Paul Gilman, ORD
       Tim Hanley, OAQPS/EMAD
       Mike Jones, OAQPS/EMAD
       Joe Paisie, OAQPS/AQSSD
       Rich Scheffe, OAQPS/EMAD
       Peter Tsirigotis, OAQPS/EMAD
       Tim Watkins, NERL
       Lydia Wegman, OAQPS/AQSSD




                                          31
                                                                  Attachment A

                          Scientific and Historical Perspective

        The 1997 PM NAAQS included a new standard for fine particles, or PM2.5,
                                                                                        See Appendix C
based upon scientific evidence that demonstrated an association between ambient
                                                                                        Note 2
PM2.5 levels and observed health effects. However, questions and concerns remained
regarding the true public health significance and credibility of the effects of ambient
PM. These concerns led to an increase the in the budget for the EPA PM research program
and the formation of the NRC committee on Research Priorities for Airborne Particulate
Matter.

        In their 1998 report, the NRC developed a broad source-to-exposure-to-
                                                                                         See Appendix C
response framework for evaluating PM issues. The original research portfolio             Note 2
suggested by the NRC included research to provide insight on how people are
exposed to PM and its components and the mechanisms by which these exposures
lead to adverse health outcomes. To accomplish this, EPA would first need to identify the
particular components of PM that were leading to adverse outcomes. EPA would then
conduct studies to understand actual human exposures to these components and to relate
these exposures to health effects observed in the real world. Subsequently, the NRC
identified the need to develop methods for measuring PM components to support these
exposure and health studies.

        Since the issuance of the 1998 NRC report, we have learned much about PM,       See Appendix C
but we have not identified a particular component that is solely responsible for        Note 2
observed adverse health outcomes. We now believe that most PM components are
likely to have a toxic effect and we also are focusing on particular sources of PM as
potential risk drivers. As a result, our PM methods research needs to provide the
measurement techniques necessary to support investigations relating to components and
sources of PM. If future research studies justify a change in the format of the PM NAAQS,
the methods used in those studies could be developed as a revised FRM. The challenge
faced by the ORD is to find an appropriate balance between supporting nearer-term needs
associated with the 1997 NAAQS and longer-term research to provide the scientific basis
for future NAAQS and, given its role in supporting both of these needs, our PM methods
research program lies at the center of this challenge.




                                            32
                                                                              Attachment B


Detailed Comments on the Office of Inspector General’s Draft Evaluation Report:
Decline in EPA Particulate Matter Methods Development Activities May Hamper
Timely Achievement of Program Goals, Assignment No. 2002-000355

        Comments are provided in three categories: (1) responses to recommendations
contained within the report, (2) clarification on a number of misunderstandings that have
arisen from the very complex nature of this area, and (3) specific suggestions to improve
the report.

Responses to Recommendations

        In general, OAR and ORD agree with the recommendations contained within the
draft report, with the possible exception of using the Federal Advisory Committee Act
(FACA) to establish a government-industry partnership. Below are our comments on the
recommendations:

•      Recommendation 2-1: OAR and ORD support the recommendation to work
                                                                                          See Appendix C
       jointly to develop a comprehensive methods development strategy. However,          Note 6
       we feel that a strategy that focuses only on PM2.5 is too narrow. The EPA is
       preparing for a potential PM coarse FRM and also needs to address longer
       term methods development, such as identifying specific components of PM for
       evaluation with health associations. The health associations are part of the methods
       development work identified in the guidance set forth by the NRC in their 1998
       report. The NRC report recognized that individuals develop adverse health
       responses to PM in the air that they breathe (exposure). It also shows that
       understanding exposure provides a critical link between regulatory monitoring and
       health outcomes. PM is a complex mixture of particles of different sizes and
       compositions that will effect both its toxicity and relationships between sources,
       ambient concentrations, and actual human exposures. As EPA moves forward with
       future PM standards development activities, we need to be able to measure PM
       mass, species, or components in the ambient air, link these measurements to sources
       and actual exposure, and relate the exposure to health effects. As a result, a
       comprehensive PM methods development strategy must address all measurements
       needed to understand the entire source-to-exposure-to-effect continuum, including
       measurement methods for various PM size fractions, PM composition, PM
       precursors, and tracers for PM sources. Furthermore, as part of an overall strategy,
       activities to develop FRMs that are used to determine compliance with the future
       standards should reflect the relationship between ambient measurements and
       exposures.

•      Recommendation 2-2: OAR and ORD support the use of Data Quality Objectives
       (DQO) to ensure important decisions with data are made with an acceptable amount
       of uncertainty. The OAR and ORD are actively engaged in a DQO process to
       define acceptable criteria for candidate equivalent PM2.5 monitoring methods.

                                            33
•      Recommendation 2-3: OAR and ORD agree with the recommendation for ORD to
       maintain personnel in the area of PM methods development as part of a strategic
       hiring plan.

•      Recommendation 3-1: OAR and ORD believe that, for formal review of PM         See Appendix C
       measurement method issues, using the CASAC provides a better alternative to   Note 5
       establishing a new government-industry partnership. CASAC has a functional
       subcommittee working on particle monitoring and is expected to continue
       meeting as EPA considers possible changes to the PM networks. The current
       process of involving the CASAC provides an unbiased opinion for methods
       development issues. The EPA can continue to informally communicate with other
       external stakeholders to ensure that their needs and issues are addressed.

•      Recommendation 3-2: OAR and ORD have learned many valuable lessons in
       developing and implementing the FRM for PM2.5, which are being applied in
       developing the FRM for PM10-2.5. We have tried to improve our approach to
       methods development while participating in the PM Supersites program (see below)

•      and in evaluating methods for the speciation networks. Insights from this draft
       report will allow us to develop a better PM methods development program that is an
       integral part of our other PM program.

Clarifications

•      There is a general misunderstanding throughout the report that three years of
       PM2.5 FRM data are unavailable, or at least unavailable for designation             See Appendix C
                                                                                           Note 1
       purposes. This is simply untrue. The PM2.5 FRM network was deployed over
       two years, 1998 and 1999. Three years of data from the initially deployed
       monitors were available on July 1, 2002 (for the years 1999, 2000, 2001) and from
       all sites on July 1, 2003 (for the years 2000, 2001, 2002). This July 1 schedule is
       consistent with the 40 CFR 58 monitoring regulation published in 1997.

•      The goal of EPA’s air program is to protect public health and the environment
       and, for criteria pollutants, NAAQS are set based on a comprehensive               See Appendix C
                                                                                          Note 7
       scientific understanding of the exposures and adverse health and
       environmental effects associated with elevated levels measured at ambient
       monitoring sites. These NAAQS are implemented by the states and tribes using
       tools and data provided in large part by EPA. Methods for measuring PM in air are
       used to both set and implement the standards. This is an important distinction and
       one that is blurred throughout the report.

•      The FRM is the primary tool for implementing the NAAQS. FRMs are the
                                                                                         See Appendix C
       basis for the standard and are used to determine regulatory compliance. Much      Note 3
       of the discussion in the report, and the title itself, is directed at the
       development of the FRM for measuring PM2.5. This method was developed
       from 1994 to 1998 to determine compliance with the PM2.5 NAAQS set in 1997.
       The development of a filter-based FRM was consistent with our scientific
       understanding of PM, the available technology, and the stringent requirements for
                                            34
    method performance that must be met to achieve the required public health
    protection. In our judgement, it was not feasible to develop a continuous
    measurement method that would meet all of the performance requirements for all
    areas of the country in the time frame that was needed for implementation
    monitoring. Finally, the epidemiological studies upon which the 1997 NAAQS was
    founded used filter-based methods to measure PM mass. To use some other
    surrogate of mass would have been inconsistent with the state of knowledge at that
    time. So, although there are now concerns voiced over the resources required to run
    a filter-based method, it is important to point out that when we developed the FRM
    for PM2.5, we placed a premium on ensuring public health protection in a timely and
    scientifically rigorous manner.

•   The EPA has not proposed a new PM NAAQS since the existing NAAQS was
                                                                                        See Appendix C
    issued in 1997. The report authors make several references to a proposed            Note 8
    “coarse” particle standard within the draft report. The EPA is currently
    reviewing the PM standards and is considering the need for a coarse particle
    standard; however, it is premature to describe this as a proposed standard. The
    EPA’s current schedule should provide for a proposal in late 2004 and a final
    standard in late 2005. The ORD, OAR, and the state and local agencies are working
    together to identify and field test a variety of candidate coarse particle methods,
    including both filter-based and continuous devices.

•   The ORD conducts research that provides the scientific underpinning of our
    regulations with an overall goal of protecting public health. In the PM area,      See Appendix C
                                                                                       Note 9
    methods development is but one research component that provides inputs to
    both developing and implementing the standards. As an important example,
    the 1997 PM2.5 standard was developed based on epidemiological studies that found
    relatively consistent but poorly understood associations between ambient PM
    concentrations and various adverse health effects. These studies raised two
    important questions: (1) could PM at ambient levels actually be responsible for the
    adverse health outcomes and (2) could ambient monitors be used to represent
    exposure to PM mass. These were critical questions associated with the NAAQS.
    In 1998, these questions were given a higher priority than methods development in
    areas not associated with the FRM as mandated by Congress, the President, and the
    NRC. The ORD is striving for a balanced program that develops the methods, data,
    and the models for both implementing the current standard, and developing future
    standards. In the next three years, ORD has placed an emphasis on developing the
    tools that can be used by states in implementing the NAAQS. In the future, we will
    emphasize research that supports setting future NAAQS and balance our activities
    in methods development, ambient and exposure measurement studies, source
    apportionment, health studies, and atmospheric and human exposure modeling to
    address the agency’s most critical data gaps.

•   The EPA has taken the NRC recommendations very seriously and worked very        See Appendix C
    hard to develop a PM research program that was responsive to both the spirit    Note 2
    and intent of all of the recommendations. The third chapter of the initial NRC
    report recommended research to develop new personal and ambient
    monitoring methods for measuring particle species and sizes. The methods research
                                         35
       identified by the NRC, which supports health and exposure research studies, was
       and continues to be, a focal point of the ORD PM methods research program.
       However, it was not until the third NRC report that methods research was explicitly
       acknowledged as a technical support activity to the overall PM research program.

•      It is important to note the role of the PM Supersites program in the EPA PM
                                                                                           See Appendix C
       methods program. As ORD responded to the recommendations in the NRC                 Note 10
       report, the EPA PM Supersites Program was being planned and implemented
       by OAR and ORD. An important objective of the Supersites program is to
       develop and test measurement methodologies. So, while ORD was redirecting
       some internal resources to respond to the NRC, overall EPA investment in methods
       work was being augmented by the PM Supersites program. Significant strides in
       methods development have occurred through the PM Supersites Program, which
       will be winding down by the end of 2004, including testing and inter-comparisons
       of continuous and speciation methods. As more PM Supersites data become
       available and are analyzed, EPA will be in a position to use the results to improve
       its activities relating to PM methods development.

Suggestions:

•      Page 1, Background, paragraph 1, line 1-5. The authors list a number of
                                                                                               See Appendix C
       sources but miss many important sources (e.g., diesel for elemental carbon).            Note 11
       We suggest they limit this discussion to the composition and major
       components, then state these components are from both natural and
       anthropogenic sources, including combustion of fossil fuels and modern material,
       secondary pollutants (e.g., sulfates and nitrates) from combustion sources, and, for
       example, organic carbon, which is a relatively major constituent everywhere,
       virtually all the time, and is emitted directly into the air (primary) or formed in the
       air from gas phase precursor species (secondary), both from a variety of combustion
       and other sources.

•      Page 2, paragraph 1, line 4. Rather than say “Some particles may travel..” and
                                                                                          See Appendix C
       “while others remain within …,” we suggest being more specific about               Note 12
       particle size and distance. Fine particles about 0.5 – 2 um in size may travel
       thousands of miles… while larger particles, 10 um in size, may only travel on
       the order of up to 100 miles, and very large particles 100 um in size may only travel
       a few hundred meters, distances for all sizes are strongly dependent on meteorology,
       such as wind speed.

•      Page 4, top. Measurement against standards is an important missing
       component that should be mentioned. For PM, this is an extremely difficult             See Appendix C
                                                                                              Note 13
       task, but one that ORD in conjunction with NIST and others are beginning to
       make progress.

•      Page 4, paragraph 4, line 1. Only Teflon filters are used within the PM2.5
                                                                                              See Appendix C
       FRM network. The nylon and quartz filters are used for chemical speciation             Note 14
       analyses.

                                              36
•   Page 4, paragraph 4, line 7, measure. A more accurate word would be
                                                                                           See Appendix C
    ‘estimate.’ The mass measured on the filter is not a measure of the fine               Note 15
    particles that a person would breathe, it is, however, ‘an estimate.’

•   Page 9, paragraph 3. Several items are identified as causes for data gaps from
    the PM2.5 network. Oil freezing in the WINS impactors, water condensation,     See Appendix C
                                                                                   Note 16
    and the mentioned software malfunctions did not result in PM2.5 concentration
    data loss. While these are issues of concern, they did not lead to data loss.
    The WINS impactor oil crystallization issue was researched by the ORD and found
    to be a non-issue for data quality. The software malfunction was due to a
    manufacturer defect that did not prevent mass data from being collected.

•   Page 10, 3rd bullet. Note that EPA funded 52 filter weighing laboratories in
    FY 1998, one for each State, Puerto Rico, and D.C. In 1999, an additional 14        See Appendix C
                                                                                        Note 17
    more filter weighing laboratories were funded for local air monitoring
    agencies. Additionally, there are several commercial laboratories available for
    this function. Although EPA does recognize the difficulty of establishing
    laboratories for filter weighing, EPA does not believe that these difficulties were
    due to a lack of timely funding.

•   Page 16, Tables 3.1 and 3.2; Pages 18 and 19. In several locations, the draft
                                                                                           See Appendix C
    report states that the chemical speciation monitoring data will be used to             Note 18
    identify a “source.” To prevent the misinterpretation of this statement, EPA
    advises the authors to state that the data will identify “source categories,” for
    example, mobile sources, industrial sources, etc., that cause elevated particulate
    matter levels.

•   Page 16 and 17, Tables 3.2 and 3.3. The draft report discusses the chemical
                                                                                            See Appendix C
    speciation network size and cost in its Chapter 3. A few corrections are
                                                                                            Note 19
    needed here. In experimenting with the continuous speciation analyzers, EPA
    has realized that the annual operation and maintenance costs for these devices
    can be as expensive as for filter based methods. As a result, EPA suggests deleting
    the checkmark in Table 3.2 that suggests that these samplers have “minimal
    operational/life cycle costs.” Additionally, in Table 3.3, the initial capital cost for a
    set of continuous instruments (nitrate, sulfate, and carbon) is $85,000 rather than
    $20,000.

•   Page 17, last paragraph. Comment regarding continuous speciation methods is
                                                                                     See Appendix C
    among the most promising near-term technologies. The Supersites Program          Note 20
    has been examining many continuous methods for mass and species.
    Although three years ago we believed several of these were very promising,
    results from the Supersites Program often suggest that we do not know what these
    monitors are actually measuring and much more research is needed in this area as
    well as a better understanding of their operational effectiveness.

•   Page 18, paragraph 1, line 11. There are currently more than 350 rural and             See Appendix C
    urban chemical speciation sites providing data to EPA. The report indicates            Note 21
    that only 142 are operating.
                                           37
•   Page 18, paragraph 2, line 2. “However, the composition of a particle
                                                                                          See Appendix C
    differs…” Change ‘a particle’ to ‘particulate matter.’ The same for several           Note 22
    other locations in this paragraph -- change particle to particulate matter.

•   Page 20. The OAR and ORD believe there are areas of the ambient                       See Appendix C
    monitoring network that can be leveraged for supporting of EPA’s homeland             Note 23
    security goals while maintaining their primary function to support NAAQS
    implementation. However, careful attention needs to be paid in not over-
    selling the leveraging that can be done in these areas. The EPA has been working
    with the Department of Homeland Security (DHS) and other federal agencies to
    establish the existing biological sensing network (BioWatch). In many cases, the
    BioWatch network uses or supplements existing ambient monitoring network
    infrastructure, such as sample platform locations, access to electrical power, and
    field staff to operate the network. The EPA is also in regular contact with the
    homeland security researchers involved with the ongoing methods development
    work. The DHS and the Los Alamos and Lawrence Livermore National
    Laboratories are investing significant resources in developing methods for
    identifying biological and chemical agents. Developing methods that detect
    biological agents requires live biological agent testing, an understanding of terrorist
    threat scenarios, and other factors that cannot be pursued by EPA acting alone. The
    components of the ambient monitoring network used for NAAQS should not be
    used for homeland security, except in the most high priority situation. As an
    example, PM filters could not be used for both air pollution program and homeland
    security purposes because the biological agent analyses must be performed
    immediately and will destroy the filter. As well, the ambient network has been
    established for neighborhood to regional scale analyses, while tracking a plume for
    a toxic release at local scales would require a different network of monitors. There
    also would be questions about the usefulness of the ambient filters, based on the
    amount of material collected and subsequent analyses for biological and chemical
    agents. Except for continuous monitors, the ambient network mostly operates on a
    1-in-3 or 1-in-6 day schedule, leaving large temporal gaps for homeland security
    information. Finally, most ambient continuous near real-time methods are only for
    the major components of mass (sulfate, nitrate, ammonium, OC, and EC).
    Continuous real-time methods do not yet exist nor are they in place in the network
    for potentially toxic biologically active or chemical toxins. The authors would have
    to drift significantly from the evaluation’s scope in order to make the report better
    reflect the complexity of this cooperation between EPA and various Federal
    agencies.




                                          38
                                                                        Appendix C

       OIG Evaluation of EPA Response to Draft Report

Note 1 -   We agree that the Agency’s description of timeframes is consistent with 40
           CFR 58. However, the 1998 Transportation Equity Act for the 21st Century
           allowed the States 3 years, until September 2001, to gather the data.
           However, a complete set of data was not available until July 2003. We have
           added a footnote for clarification. Also, we have modified the wording in
           our report to recognize that the decline in methods development activities
           was one of several contributing factors that jeopardizes EPA’s ability to
           fully achieve the short- and long-range goals of the PM2.5 program in a
           timely manner. Nonetheless, our work indicated that the decline in methods
           development was a key contributing factor, and our report continues to
           reflect that position.

Note 2 -   We agree and have modified the report to clarify the distinction between
           National Research Council’s recommendations in its Volume 1 report and
           the National Research Council’s Volume 3 report. We did review the PM
           Research Program Multi-year Plan, as indicated on page 17 of the draft
           report. It should be noted that the documents in the Scope and Methodology
           section of our report were not meant to be all inclusive. Instead, we list
           some of the key documents used to develop the facts and issues presented in
           our report. However, we have modified our report to present a more
           balanced view of the longer-term research needs of the overall PM research
           program, as outlined in the National Research Council’s report.

Note 3 -   We agree that filter-based mass-only monitors were the viable option when
           ambient air monitoring implementation began in 1998, and have added
           further emphasis to highlight this point. However, having a vigorous
           methods development program will potentially result in more monitor
           options becoming available as EPA moves forward with its PM monitoring
           network.

Note 4 -   We agree that the deployment of the PM2.5 monitoring network was
           extremely challenging and that problems encountered by States were typical
           of a large network. We have modified the report to reflect this.

Note 5 -   We agree that our recommendation should not restrict EPA to using a
           particular process, such as the Federal Advisory Committee Act, to
           accomplish the goals and objectives of the PM program. We agree that the
           Clean Air Scientific Advisory Committee process is a suitable alternative,
           and have modified our recommendation to reflect this.




                                        39
Note 6 -    We agree that a methods development strategy that only focuses on PM2.5
            may be too narrow. We have modified our recommendation for EPA to
            develop a comprehensive PM strategy.

Note 7 -    We agree that methods for measuring PM in air are used to both set and
            implement the standards, and have modified our report to reflect this.

Note 8 -    We have modified our report to reflect EPA’s current estimate for the
            schedule of proposing and finalizing a coarse standard.

Note 9 -    We agree with the importance for ORD to strive for a balanced program that
            develops the methods, data, and models for both implementing the current
            standard and developing future standards. However, as part of achieving
            this balanced program, both OAQPS and ORD officials have acknowledged
            that PM methods development warrants increased attention by EPA.

Note 10 -   We agree that the PM Supersites program is important in the overall EPA
            PM methods program, and have modified our report accordingly.

Note 11 -   We agree that the Agency’s definition of the sources of PM is more
            complete. However, we believe our definition is more appropriate for the
            non-scientific readers of this report.

Note 12 -   We have modified our report regarding PM travel as it relates to the size of
            the particle.

Note 13 -   We have modified the report to reflect that monitoring is also a form of
            measurement against the standards.

Note 14 -   We have modified the report to reflect that only teflon filters are used within
            the PM2.5 FRM network.

Note 15 -   We have modified the report to reflect that the PM2.5 data is not a
            measurement but instead is an estimate of the fine particulate matter that a
            person would breathe.

Note 16 -   We agree that data gaps were eventually filled; however, our work found
            that the monitor malfunctions did result in a loss of data.

Note 17 -   We have modified our report to reflect that while there were difficulties with
            establishing laboratories for filter weighing, EPA does not believe these
            issues were due to a lack of funding.

Note 18 -   We have added a footnote to clarify that, when referring to emissions
            sources, unless otherwise stated, we are also referring to the larger category
            of sources, such as mobile, industrial, etc.


                                          40
Note 19 -   We changed the original EPA estimate of $20,000 (provided to us by
            Agency staff during our field work) to reflect the Agency’s most recent
            estimate of $85,000 for a set of continuous instruments (nitrate, sulfate,
            carbon).

Note 20 -   Based on our discussions with EPA and State officials, we still maintain that
            continuous mass and continuous speciation monitors are among the most
            promising near-term technologies. However we have added that EPA
            officials also believe that much more research is needed.

Note 21 -   We agree that there are 350 rural and urban chemical speciation sites, which
            include IMPROVE and Speciation Trends Network monitors. However, our
            number of 142 speciation monitors is based on information provided by
            OAQPS in January 2003.

Note 22 -   Where appropriate, we have changed the terminology from “a particle” to
            “particulate matter.”

Note 23 -   We agree with the Agency that the ambient monitoring network can be
            leveraged to support EPA’s homeland security goals while maintaining its
            primary function to support National Ambient Air Quality Standard
            implementation. We have clarified that EPA must work closely with other
            Federal agencies to accomplish this effort.




                                          41
42
                                                                              Appendix D

                     ORD Response to Draft Report
Note: We did not include ORD’s attachments to its response because they
were the same as the attachments in EPA’s consolidated response.



                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460


                                  September 26, 2003
                                                                               OFFICE OF
                                                                       RESEARCH AND DEVELOPMENT




MEMORANDUM

SUBJECT:       ORD Response to the Inspector General’s Draft Report “Decline in EPA
               Particulate Matter Methods Development May Hamper Timely Achievement
               of Program Goals”

FROM:          Paul Gilman /s/ Paul Gilman
               Assistant Administrator (8101R)

TO:            J. Rick Beusse
               Director for Program Evaluation, Air Quality Issues
               Office of Inspector General

Introduction

        The purpose of this memorandum is to provide you with the Office of Research and
Development’s (ORD) response to the Office of Inspector General’s (OIG) draft report
“Decline in EPA Particulate Matter Methods Development May Hamper Timely
Achievement of Program Goals.” We do not concur with the findings of this report, and
the underlying premise that a decline in EPA’s methods development activities has led to
delays in achieving particulate matter (PM) program goals. This memorandum outlines our
concerns with the findings, presents our response to the report recommendations, and
provides a scientific and historical perspective of the EPA PM research program that must
be appreciated to place this draft OIG report in the proper context. We have also included
an attachment that provides more detailed comments on the draft report.

Response to Findings and Recommendations

       We do not concur with the overall findings in this draft report. Specifically, we do
not agree with the statement, “EPA has not supported PM2.5 methods development activities
                                            43
to the extent necessary to achieve the short- and long-range goals of the PM2.5 program.”
The draft OIG report focuses on the short-term issue of deployment of the PM2.5 monitoring
network in response to the 1997 National Ambient Air Quality Standard (NAAQS), but
does not present a balanced view of the longer-term research needs of the overall PM
research program as outlined by the National Research Council’s (NRC) Committee on
Research Priorities for Airborne Particulate Matter. In addition, the report indicates that
reduced emphasis on PM methods activities has led to delays in obtaining data to make
compliance determinations and, therefore, led to “millions of individuals being exposed to
excess levels of PM.” This conclusion is false. The PM2.5 Federal Reference Method
(FRM) was developed in time for promulgation of the 1997 PM NAAQS. In addition,
EPA has met the schedule for obtaining data to make compliance determinations using the
FRM that was contained in the monitoring regulation that supported the 1997 NAAQS. As
a result, concluding that a decline in EPA PM methods development activities led to excess
exposures across the country is not appropriate.

        The draft OIG report does not describe PM methods development in the context of
the outcome-oriented design for EPA’s PM research program documented in the
Particulate Matter Research Program Multi-year Plan. This design–established with
participation by our clients–describes the research needed to achieve short-term outcomes,
responds to recommendations by the National Research Council Committee on Research
Priorities for Airborne Particulate Matter, and helps EPA achieve its strategic goals and
objectives. The Scope and Methodology sections of the draft OIG report do not mention
the Particulate Matter Research Program Multi-year Plan, indicating that this important
design context was not considered when the OIG prepared its observations, findings, and
results-in-brief.

        This draft report also indicates that a decline in EPA methods development
activities led to difficulties encountered by states in deploying the PM2.5 ambient monitoring
network caused by limited monitoring options, insufficient field testing, and insufficient
technical assistance and guidance. We do not agree. We believe that the issues and
problems encountered by the states were not atypical for the deployment of a large network
of new monitors across the entire country. Both ORD and OAR recognized that problems
and issues in deploying such a large network were likely and worked extremely hard to
address these issues as they arose during implementation of the new monitoring network.
Senior managers from both organizations met monthly to address issues and provide
necessary and timely resources to remedy problems brought to their attention. Overall, the
deployment of the PM2.5 monitoring network was extremely challenging and EPA could not
predict issues that ultimately arose. However, we were prepared to address the issues that
were raised, and were successful in resolving them.

       Another assertion identified in the draft report is that EPA provided limited
monitoring options for the FRM supporting the 1997 NAAQS. We believe the
development of a filter-based FRM was consistent with our scientific understanding of PM,
the available technology, and the stringent requirements for method performance that must
be met to achieve the required public health protection. It is also important to note that the
FRM, promulgated as part of the 1997 NAAQS, was reviewed by the Clean Air Scientific
Advisory Committee (CASAC) and underwent public comment along with the NAAQS.

                                             44
EPA considered comments from both of these reviews in its final decision to promulgate
the FRM for PM2.5.

        Additionally, the recommendations in this draft report do not follow from the
premise and findings discussed above. We support the spirit of the recommendations for
forward looking methods development research, and concur with all but one of the
recommendations. The one exception is the recommendation to use the Federal Advisory
Committee Act (FACA) to establish a government-industry partnership (Recommendation
3-1). In addition, while we concur with the recommendations to develop a PM methods
development strategy (Recommendation 2-1) and to maximize opportunities to enhance
Homeland Security efforts (Recommendation 3-3), we have comments regarding their
implementation. Our detailed comments on the recommendations contained in this draft
report are included in the attachment to this memorandum.

Scientific and Historical Perspective

        The 1997 PM NAAQS included a new standard for fine particles, or PM2.5, based
upon scientific evidence that demonstrated an association between ambient PM2.5 levels and
observed health effects. However, questions and concerns remained regarding the true
public health significance and credibility of the effects of ambient PM. These concerns led
to an increase in the budget for the EPA PM research program and the formation of the
NRC committee on Research Priorities for Airborne Particulate Matter.

       In their 1998 report, the NRC developed a broad source-to-exposure-to-response
framework for evaluating PM issues. The original research portfolio suggested by the NRC
included research to provide insight on how people are exposed to PM and its components
and the mechanisms by which these exposures lead to adverse health outcomes. To
accomplish this, EPA would first need to identify the particular components of PM that
were leading to adverse outcomes. EPA would then conduct studies to understand actual
human exposures to these components and to relate these exposures to health effects
observed in the real world. Subsequently, the NRC identified the need to develop methods
for measuring PM components to support these exposure and health studies.

        Since the issuance of the 1998 NRC report, we have learned much about PM, but
we have not identified a particular component that is solely responsible for observed
adverse health outcomes. We now believe that most PM components are likely to have a
toxic effect and we are also focusing on particular sources of PM as potential risk drivers.
As a result, our PM methods research needs to provide the measurement techniques
necessary to support investigations relating to components and sources of PM. If future
research studies justify a change in the format of the PM NAAQS, the methods used in
those studies could be developed as a revised FRM. The challenge that we face in ORD is
to seek an appropriate balance between supporting nearer-term needs associated with the
1997 NAAQS and longer-term research to provide the scientific basis for future NAAQS
and, given its role in supporting both of these needs, our PM methods research program lies
at the center of this challenge.




                                            45
Conclusion

        As indicated above, ORD does not agree with the findings of this draft report. We
do not accept the underlying premise that a decline in EPA methods development activities
has led to delay in achieving EPA PM program goals. We also believe that this draft report
has not adequately captured the scientific and historical perspective of the EPA PM
research program, which must be understood to place this report in the proper context.

       If you have any questions you would like to bring to my attention, please call me on
(202) 564-6620.

Attachment

cc: Henry L. Longest II
    William Farland
    Gary Foley
    Jeffrey Holmstead
    Rob Brenner
    Jerry Kurtzwig




                                            46
                                                                        Appendix E
                                  Distribution
EPA Headquarters

Assistant Administrator for Air and Radiation (6101A)
Assistant Administrator for Research and Development (8101R)
Comptroller (2731A)
Agency Follow-up Official (2710A)
Agency Follow-up Coordinator (2724A)
Audit Follow-up Coordinator, Office of Air and Radiation (6102A)
Audit Follow-up Coordinator, Office of Research and Development (8102A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Director, Office of Regional Operations (1108A)
Associate Administrator for Communication, Education, and Media Relations (1101A)
Director, Office of Air Quality Planning and Standards (C404-04)
Director, National Exposure Research Laboratory (MD-75)
Leader, Monitoring and Quality Assurance Group (C339-02)
Office of Air Quality Planning and Standards Audit Liaison (C404-2)
National Exposure Research Laboratory Audit Liaison (MD-343-01)

EPA Regions

Regional Administrators
Regional Air Program Directors
Regional Public Affairs Offices

State and Local Air Pollution Control Agencies

New York Department of Environmental Conservation
Pennsylvania Department of Environmental Protection
South Carolina Department of Health and Environmental Control
Mississippi Department of Environmental Quality
Illinois Environmental Protection Agency
Ohio Environmental Protection Agency
Texas Commission on Environmental Quality
California Air Resources Board
Puget Sound Clean Air Agency




                                         47
EPA Office of Inspector General

Inspector General (2410)
Assistant Inspector General for Program Evaluation
Assistant Inspector General for Human Capital
Assistant Inspector General for Planning, Analysis and Results
Assistant Inspector General for Congressional and Public Liaison
Counsel
Science Advisor
Product Line Directors
Editor
Human Resource Center Managers




                                           48
